<html>
<title> - HEARING ON: H.R. 2541, A BILL TO ADJUST THE BOUNDARIES OF THE GULF ISLANDS NATIONAL SEASHORE TO INCLUDE CAT ISLAND, MS; H.R. 1864, (HANSEN) A BILL TO STANDARDIZE THE PROCESS FOR CONDUCTING PUBLIC HEARINGS FOR FEDERAL AGENCIES WITHIN THE DEPARTMENT OF THE INTERIOR; AND H.R. 1866, A BILL TO PROVIDE A PROCESS FOR THE PUBLIC TO APPEAL CERTAIN DECISIONS MADE BY THE NPS AND BY THE U.S. FISH AND WILDLIFE SERVICE</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
  HEARING ON: H.R. 2541, A BILL TO ADJUST THE BOUNDARIES OF THE GULF 
    ISLANDS NATIONAL SEASHORE TO INCLUDE CAT ISLAND, MS; H.R. 1864, 
   (HANSEN) A BILL TO STANDARDIZE THE PROCESS FOR CONDUCTING PUBLIC 
 HEARINGS FOR FEDERAL AGENCIES WITHIN THE DEPARTMENT OF THE INTERIOR; 
  AND H.R. 1866, A BILL TO PROVIDE A PROCESS FOR THE PUBLIC TO APPEAL 
  CERTAIN DECISIONS MADE BY THE NPS AND BY THE U.S. FISH AND WILDLIFE 
                                SERVICE

=======================================================================

                                HEARING

                               before the

            SUBCOMMITTEE ON NATIONAL PARKS AND PUBLIC LANDS

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                   SEPTEMBER 30, 1999, WASHINGTON, DC

                               __________

                           Serial No. 106-64

                               __________

           Printed for the use of the Committee on Resources

 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
           Committee address: http://www.house.gov/resources

                                 ______


                    U.S. GOVERNMENT PRINTING OFFICE
64-045 <l-ar/r-ar>          WASHINGTON : 1999
______________________________________________________________________________

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone (202) 512�091800  Fax: (202) 512�092250
              Mail: Stop SSOP, Washington, DC 20402�090001




                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                NICK J. RAHALL II, West Virginia
JIM SAXTON, New Jersey               BRUCE F. VENTO, Minnesota
ELTON GALLEGLY, California           DALE E. KILDEE, Michigan
JOHN J. DUNCAN, Jr., Tennessee       PETER A. DeFAZIO, Oregon
JOEL HEFLEY, Colorado                ENI F.H. FALEOMAVAEGA, American 
JOHN T. DOOLITTLE, California            Samoa
WAYNE T. GILCHREST, Maryland         NEIL ABERCROMBIE, Hawaii
KEN CALVERT, California              SOLOMON P. ORTIZ, Texas
RICHARD W. POMBO, California         OWEN B. PICKETT, Virginia
BARBARA CUBIN, Wyoming               FRANK PALLONE, Jr., New Jersey
HELEN CHENOWETH-HAGE, Idaho          CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         ROBERT A. UNDERWOOD, Guam
WILLIAM M. (MAC) THORNBERRY, Texas   PATRICK J. KENNEDY, Rhode Island
CHRIS CANNON, Utah                   ADAM SMITH, Washington
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA MC CHRISTENSEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               RON KIND, Wisconsin
JIM GIBBONS, Nevada                  JAY INSLEE, Washington
MARK E. SOUDER, Indiana              GRACE F. NAPOLITANO, California
GREG WALDEN, Oregon                  TOM UDALL, New Mexico
DON SHERWOOD, Pennsylvania           MARK UDALL, Colorado
ROBIN HAYES, North Carolina          JOSEPH CROWLEY, New York
MIKE SIMPSON, Idaho                  RUSH D. HOLT, New Jersey
THOMAS G. TANCREDO, Colorado

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director
                                 ------                                

            Subcommittee on National Parks and Public Lands

                    JAMES V. HANSEN, Utah, Chairman
ELTON, GALLEGLY, California          CARLOS A. ROMERO-BARCELO, Puerto 
JOHN J. DUNCAN, Jr., Tennessee           Rico
JOEL HEFLEY, Colorado                NICK J. RAHALL II, West Virginia
RICHARD W. POMBO, California         BRUCE F. VENTO, Minnesota
GEORGE P. RADANOVICH, California     DALE E. KILDEE, Michigan
WALTER B. JONES, Jr., North          DONNA CHRISTIAN-CHRISTENSEN, 
    Carolina                             Virgin Islands
CHRIS CANNON, Utah                   RON KIND, Wisconsin
RICK HILL, Montana                   JAY INSLEE, Washington
JIM GIBBONS, Nevada                  TOM UDALL, New Mexico
MARK E. SOUDER, Indiana              MARK UDALL, Colorado
DON SHERWOOD, Pennsylvania           JOSEPH CROWLEY, New York
                                     RUSH D. HOLT, New Jersey
                        Allen Freemyer, Counsel
                     Todd Hull, Professional Staff
                    Liz Birnbaum, Democratic Counsel
                   Gary Griffith, Professional Staff




                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held Thursday, September 30, 1999........................     1

Statements of Members:
    Hansen, Hon. James V., a Representative in Congress from the 
      State of Utah..............................................     1
        Prepared statement of....................................     3
    Romero-Barcelo, Hon. Carlos A., a Resident Commissioner in 
      Congress from The Commonwealth of Puerto Rico..............    14
    Gene, Hon., Taylor, a Representative in Congress from the 
      State of Mississippi.......................................    15
        Prepared statement of....................................    17
    Udall, Hon. Mark, a Representative in Congress from the State 
      of Colorado................................................    15
    Underwood, Hon. Robert, a Delegate in Congress from the 
      Territory of Guam..........................................    18
        Prepared statement of....................................    20

Statements of witnesses:
    Bieti, Fred, Isle Royale Boaters Association.................    60
        Prepared statement of....................................    63
    Boddie-Colbert, Cala, Cat Island, Mississippii...............    31
        Prepared statement of....................................    73
    Falkner, Juliette, Director, Office of Regulatory Affairs, 
      Department of Interior.....................................    56
        Prepared statement of....................................    58
    Matson, Jim, President, Vermillion Services..................    89
        Prepared statement of....................................    91
    Monahan, Bob, Chairman, Monahan Group........................    93
        Prepared statement of....................................    97
    Shaddox, William, Acting Associate Director for Professional 
      Services, National Park Service............................    27
        Prepared statement of....................................    29

Additional material supplied:
    Text of H.R. 2541............................................     5
    Text of H.R. 1864............................................     7
    Text of H.R. 1866............................................    11
 HEARING ON: H.R. 2541, A BILL TO ADJUST THE BOUNDARIES OF THE 
     GULF ISLANDS NATIONAL SEASHORE TO INCLUDE CAT ISLAND, 
  MISSISSIPPI; H.R. 1864, (HANSEN) A BILL TO STANDARDIZE THE 
  PROCESS FOR CONDUCTING PUBLIC HEARINGS FOR FEDERAL AGENCIES 
WITHIN THE DEPARTMENT OF THE INTERIOR; AND H.R. 1866, A BILL TO 
 PROVIDE A PROCESS FOR THE PUBLIC TO APPEAL CERTAIN DECISIONS 
MADE BY THE NATIONAL PARK SERVICE AND BY THE UNITED STATES FISH 
                      AND WILDLIFE SERVICE

                              ----------                              


                      THURSDAY, SEPTEMBER 30, 1999

              House of Representatives,    
                       Subcommittee on National    
                                Parks and Public Lands,    
                                    Committee on Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10 a.m. in Room 
1324, Longworth House Office Building, Hon. James V. Hansen 
[chairman of the Subcommittee] presiding.
    Mr. Hansen. The meeting will come to order.

STATEMENT OF HON. JAMES V. HANSEN, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    Mr. Hansen. Good morning and welcome to the hearing.
    The Subcommittee on National Parks and Public Lands will 
hear testimony on three bills, H.R. 2541, H.R. 1864, and H.R. 
1866.
    H.R. 2541 was introduced by Congressman Gene Taylor of 
Mississippi. This bill would adjust the boundaries of the Gulf 
Islands National Seashore to include an area of land known as 
Cat Island, Mississippi. Gulf Islands National Seashore is 
administered by the National Park Service and consists of a 
number of coastal barrier islands stretching along the coast of 
Mississippi and the panhandle of Florida.
    H.R. 2541 would modify the boundaries of the national 
seashore to include Cat Island. The island is approximately 
2,145 acres in size and offers around 21 miles of shoreline. 
Most of Cat Island, ap-

proximately 90 percent, is currently owned by one family. The 
other 10 percent is owned by nearly 15 other individuals who 
retain smaller land holdings.
    I understand there are a few problems with this bill that 
need to be ironed out before the bill moves forward. These 
include excluding some of the private land area from the 
boundaries, agreements as to what will become of the land when 
it becomes part of the seashore, and establishing clear 
language as to fishing rights around the island.
    The second bill is H.R. 1864, a bill that I introduced to 
address the problem that citizens have conveyed to me over a 
number of years concerning the Department of the Interior. This 
bill directs the Secretary of the Interior to standardize a 
process for conducting public hearings for Federal agencies 
within the Department to help ensure that the public 
understands and can fully participate in public hearings.
    Presently, public hearings held by Federal agencies do not 
have any standard way that they are conducted. As a result, 
these agencies hold hearings any way they see fit. This has led 
to numerous complaints and confusion by the general public when 
appearing at these public hearings.
    For example, no established regulation requires Federal 
agencies to respond to legitimate questions asked by the 
public. People walk away from these hearings confused and many 
times irate that the government did not attempt to address 
their concerns.
    H.R. 1864 would help alleviate this problem by 
standardizing the procedures used by Federal agencies for 
public hearings. This would give the public an understanding as 
to what is expected from Federal agencies, along with what is 
expected from them, when they conduct a public hearing. 
Standardizing these procedures would also provide a process for 
the public to ask relevant questions and receive informed and 
timely answers from the Federal agencies.
    I want to note that nothing in this bill limits or 
interferes with other opportunities for the public to comment 
on or participate in agency decisions pursuant to NEPA or the 
Administrative Procedures Act. Nor does H.R. 1864 replace any 
existing law or policy which provides for public involvement in 
hearings held by Federal agencies.
    The third bill is H.R. 1866, another bill that I 
introduced. This bill requires the Secretary of the Interior to 
establish a process for the public to administratively appeal 
certain decisions made pursuant to NEPA by the National Park 
Service and the U.S. Fish and Wildlife Service. These 
regulations would establish what types of agency decisions are 
appealable, who may appeal such decisions, the responsibilities 
and procedures of the appellant or other party, and also 
establish a process the Federal agencies would follow for 
notifying the public for their appeal process.
    Obviously, decisions made by Federal officials are an 
important function for Federal land management agencies. These 
decisions, of course, have direct effects on the methods used 
and the result of the land management activities. Frequently, 
however, members of the public disagree with the decisions made 
by these Federal agencies. Two Federal land management 
agencies, the Forest Service and the BLM, currently have an 
administrative process whereby the public can appeal certain 
decisions in regard to the land management. However, at 
present, the only recourse the public has if disagreeing with 
decisions made by the Park Service or the Fish and Wildlife 
Service is to take the issue to court. I believe a similar 
administrative appeal process for NEPA decisions made by the 
Park Service and the Fish and Wildlife Service should be made 
available to the public so that decisions made by these two 
agencies could be reviewed and modified, if appropriate.
    Before we begin the testimony, I would like to mention a 
few things related to the two bills that I have introduced. I 
believe that both of these bills are good ideas, and it is time 
we took a look at what they are trying to accomplish. However, 
I realize that these bills, especially H.R. 1866, only 
represents a starting point. I am very open to ideas and 
discussion with interested parties and the minority so that the 
bill can be crafted to meet the needs of the public and the 
agencies while at the same time avoiding creating a 
bureaucratic mess which bogs the system down rather than 
improves it.
    All of that said, I want to thank our witnesses for being 
here today and those that are going to testify on the bills.
    [The prepard statement of Mr. Hansen follows:]

 Statement of Hon. James V. Hansen, a Representative in Congress from 
                           the State of Utah

    Good morning everyone and welcome to the hearing today. The 
Subcommittee on National Parks and Public Lands will hear 
testimony on three bills, H.R. 2541, 1864, and 1866.
    H.R. 2541 was introduced Congressman Gene Taylor of 
Mississippi. This bill would adjust the boundaries of the Gulf 
Islands National Seashore to include an area of land known as 
Cat Island, Mississippi. Gulf Islands National Seashore is 
administered by the National Park Service and consists of a 
number of coastal barrier islands stretching along the coasts 
of Mississippi and the panhandle of Florida.
    H.R. 2541 would modify the boundaries of the National 
Seashore to include Cat Island. The island is approximately 
2145 acres in size and offers around 21 miles of shoreline. 
Most of Cat Island (approximately 90 percent) is currently 
owned by one family. The other 10 percent is owned by nearly 15 
other individuals who retain smaller land holdings.
    I understand there are a few problems with this bill that 
need to ironed out before this bill moves forward. These 
include excluding some of the private land area from the 
boundaries, agreements as to what will become of this land when 
it becomes part of the seashore, and establishing clear 
language as to fishing rights around the island.
    The second bill is H.R. 1864, a bill that I introduced to 
address a problem that citizens have conveyed to me over a 
number of years concerning the Department of the Interior. This 
bill directs the Secretary of the Interior to standardize a 
process for conducting public hearings for Federal agencies 
within the Department to help ensure that the public 
understands and can fully participate in public hearings.
    Presently, public hearings held by Federal agencies do not 
have any standard way they are conducted. As a result, these 
agencies hold hearings any way they see fit. This has led to 
numerous complaints from and confusion by the general public 
when appearing at these public hearings. For example, no 
established regulation requires Federal agencies to respond to 
legitimate questions asked by the public. People walk away from 
these hearings confused and many times irate that the 
government did not even attempt to address their concerns. H.R. 
1864 would help alleviate this problem by standardizing the 
procedures used by Federal agencies for public hearings. This 
would give the public an understanding as to what is expected 
from Federal agencies, along with what is expected from them, 
when conducting public hearings. Standardizing these procedures 
would also provide a process for the public to ask relevant 
questions and receive informed and timely answers from the 
Federal agencies. I want to note that nothing in this bill 
limits or interferes with other opportunities for the public to 
comment on or participate in agency decisions pursuant to NEPA 
or the Administrative Procedures Act. Nor does H.R. 1864 
replace any existing law or policy which provides for public 
involvement in hearings held by Federal agencies.
    The third bill is H.R. 1866, another bill that I 
introduced. This bill requires the Secretary of the Interior to 
establish a process for the public to administratively appeal 
certain decisions made pursuant to NEPA by the National Park 
Service and the U.S. Fish and Wildlife Service. These 
regulations would establish what types of agency decisions are 
appealable, who may appeal such decisions, the responsibilities 
and procedures of the appellant or other party, and also 
establish a process the Federal agencies would follow for 
notifying the public of their appeal procedures.
    Obviously, decisions made by Federal officials are an 
important function for Federal land management agencies. These 
decisions, of course, have direct effects on the methods used 
and the results of the land management activities. Frequently, 
however, members of the public disagree with the decisions made 
these Federal agencies. Two Federal land management agencies, 
the Forest Service and the BLM, currently have an 
administrative process whereby the public can appeal certain 
decisions in regard to their land management. However, at 
present, the only recourse the public has if disagreeing with 
decisions made by the Park Service or the Fish and Wildlife 
Service is to take the issue to court. I believe a similar 
administrative appeal process for NEPA decisions made by the 
Park Service and Fish & Wildlife Service should be made 
available to the public so that decisions made by these two 
agencies can be reviewed and modified, if appropriate.
    Before we begin the testimony I'd like to like to mention a 
few things related to the two bills I introduced. I believe 
that both these bills are good ideas and its time we took a 
look at what they are trying to accomplish. However, I realize 
that these bills, especially H.R. 1866 represent a starting 
point. I am very open to ideas and discussion with interested 
parties and the Minority so that a bill can be crafted to meet 
the needs of the public and the agencies, while at the same 
time, avoid creating a bureaucratic mess which bogs the system 
down rather than improve it.
    With that said, I want to thank all of our witnesses for 
being here today to testify on all the bills and now turn the 
time over to the Ranking Member Mr. Romeo-Barcelo.
[GRAPHIC] [TIFF OMITTED] T4045.001

[GRAPHIC] [TIFF OMITTED] T4045.002

[GRAPHIC] [TIFF OMITTED] T4045.003

[GRAPHIC] [TIFF OMITTED] T4045.004

[GRAPHIC] [TIFF OMITTED] T4045.005

[GRAPHIC] [TIFF OMITTED] T4045.006

[GRAPHIC] [TIFF OMITTED] T4045.007

[GRAPHIC] [TIFF OMITTED] T4045.008

[GRAPHIC] [TIFF OMITTED] T4045.009

    Mr. Hansen. Now I turn the time over to the Ranking Member, 
the gentleman from Puerto Rico.

    STATEMENT OF HON. CARLOS A. ROMERO-BARCELO, A RESIDENT 
 COMMISSIONER IN CONGRESS FROM THE COMMONWEALTH OF PUERTO RICO

    Mr. Romero-Barcelo. Thank you, Mr. Chairman.
    First of all, I would like to welcome the two fellow 
members, one of the fellow members from this Committee, from 
Guam, Mr. Underwood, and Mr. Taylor, one of the sponsors of one 
of these bills.
    Today, the Subcommittee will hear testimony of the two 
bills relating to the hearing and the appeals process of the 
agencies within the Department of the Interior as well as an 
unrelated measure dealing with the Gulf Islands National 
Seashore.
    H.R. 2541, which is the Gulf Islands National Seashore 
Bill, is about the islands which stretch for 150 miles along 
the Gulf Coast from Mississippi to Florida. The seashore is 
more than 135,000 acres in size and includes portions of both 
the mainland and a chain of barrier islands.
    Apparently, when the seashore was first conceived, it was 
hoped that Cat Island, one of the islands in this chain, would 
be included. However, the family which owned most of the island 
did not wish to be included at that time. As a result, despite 
the fact that Cat Island was thought to be the crown jewel of 
the area, the seashore did not include this originally, and it 
is our understanding that the family is now willing to have 
their land included in the seashore.
    H.R. 2541, sponsored by my colleague, Representative 
Taylor, would alter the boundary that encompasses this 
addition. We understand there are several issues which may need 
to be resolved regarding this legislation, including the 
exemption of a portion of the island from the legislation and a 
question regarding the ownership of the water surrounding the 
island. I look forward to hearing from the family and the Park 
Service on this issue as well as our colleague.
    H.R. 1864 and H.R. 1866 would require the Secretary of the 
Interior to develop new regulations concerning the public 
hearing process of agencies within the Department of the 
Interior as well as the appeals process for National Park 
Service and Fish and Wildlife Service decisions. Both bills 
contain specific requirements that would have to be part of any 
such regulations. We don't know the extent or exact nature of 
the problems these two bills seek to rectify nor do we know the 
consequences of the proposed solutions. Hopefully, the 
testimony we will receive today will shed some light on these 
issues. We would like to welcome each of our witnesses here 
today, and we look forward to their testimony.
    Mr. Hansen. I thank the gentleman.
    We are honored to have two of our colleagues with us, Mr. 
Gene Taylor of Mississippi and Bob Underwood from Guam. We 
appreciate these gentlemen being with us.
    Mr. Taylor, we will start with you, sir.
    Hold just a minute, I apologize. The gentleman from 
Colorado. I am sorry, I didn't see you. Do you have an opening 
statement you would like to make?

STATEMENT OF HON. MARK UDALL, A REPRESENTATIVE IN CONGRESS FROM 
                     THE STATE OF COLORADO

    Mr. Mark Udall. Thank you, Mr. Chairman.
    I just want to the echo the comments of both the Ranking 
Member and the chairman, and I look forward working with you, 
particularly on this issue of public input that is heard and 
that leads us to the kind of outcomes that we all want. I am 
open to working with the chairman and the Ranking Member and 
look forward to the testimony.
    Mr. Hansen. I appreciate your comments.

  STATEMENT OF HON. GENE TAYLOR, A REPRESENTATIVE IN CONGRESS 
                 FROM THE STATE OF MISSISSIPPI

    Mr. Hansen. Mr. Taylor, we will turn to you now; and the 
time is yours, sir.
    Mr. Taylor. Thank you, Mr. Hansen, Mr. Romero-Barcelo. It 
is pretty ironic that we are now in a position where an island 
in the other guy's backyard is subject to each of our 
jurisdictions.
    Mr. Romero-Barcelo. You better hide it from the Navy. They 
like the pretty islands.
    Mr. Taylor. I am looking forward to traveling to Puerto 
Rico once we adjourn to see if we can't do a better job for the 
sake of the people of Puerto Rico.
    Good morning, Mr. Chairman and members of the Committee. I 
am pleased to be before the Committee today, testifying on 
behalf of H.R. 2541. I introduced this bill to adjust the 
boundary of the Gulf Islands National Seashore to include Cat 
Island, which is the island you see in the photo taken from 
space by the NASA remote sensing lab. I have submitted a copy 
of this testimony to the Committee and ask this document be 
part of the record.
    I have been a life-long resident of the Mississippi Gulf 
Coast. As many residents of the area, I have had the incredible 
good fortune of enjoying the natural beauty, physical resources 
and wildlife of this pristine island. I would add that the 
present owners of the island have been incredibly generous to 
allow people to go on their private property which is how so 
many of us have had the opportunity to enjoy it.
    I come here today to urge adoption and the inclusion of a 
portion of Cat Island that the Boddie family offers, as willing 
sellers, to be included in the Gulf Island National Seashore.
    The Gulf Island National Seashore was established by Public 
Law 91-660 on January 8, 1971, to preserve Petit Bois, Horn and 
East and West Ship Islands for public use and enjoyment because 
of their natural beauty and recreational values. At that time, 
Cat Island was also considered for inclusion within this 
boundary. In fact, in a hearing held in June of 1970 regarding 
establishment of the seashore, the Assistant Secretary of Fish 
and Wildlife, Parks, and Marine Resources testified before the 
Committee on Interior and Insular Affairs, Subcommittee on 
National Parks and Recreation, that Cat Island offers an--now I 
am quoting--``ecological array of conditions which cannot be 
located anywhere else.''
    The total uniqueness Cat Island offers makes it a key 
addition to the Gulf Island National Seashore. Cat Island is 
the last of the Gulf Islands to be publicly protected. I would 
like to see a majority of this island preserved for future 
generations to enjoy.
    Therefore, I come before the Committee today, Mr. Chairman 
and Ranking Member, to urge adoption of H.R. 2541 with two 
exceptions.
    The first exception is to remove the Boddie family parcel 
and the existing privately owned subdivided lots on Cat Island 
from the proposed boundary of the Gulf Island National 
Seashore. In the early 1970s or late 1960s, the family sold off 
several lots on the island. The family would also like to keep 
a small portion of the island, and the total of this adds up to 
about 160 acres. I insist on leaving these parcels out of the 
seashore boundary simply because this designated acreage is not 
being willingly offered for inclusion. The rest of the island 
is. I value the importance of this and have promised the owners 
that I would never do anything to forcibly take their land from 
them with or without compensation.
    Secondly, I would like to bring to the Committee's 
attention that in July of 1986, subsequent to the Gulf Island 
National Seashore being established, the Supreme Court of the 
State of Mississippi ruled on a case entitled Cinque Bambini 
Partnership versus the State of Mississippi. In this case, the 
claimants brought action against the State of Mississippi to 
clarify title resulting from oil leases granted by the State. 
The Supreme Court held that fee simple title to all lands 
naturally subject to tidal influence inland to the current mean 
high water mark is held by the State of Mississippi in trust; 
and lands bought within the ebb and flow of tide by avulsion or 
by artificial or non-natural means are owned by the record 
titleholders.
    All of that being said, basically means that that land up 
to the high water mark belongs to the State, since our laws are 
based on English law and that was the English common law prior 
to the United States becoming a separate entity. Since this 
case has happened, since the inclusion of the other islands 
clarified that as far as we would recognize, the State of 
Mississippi owns everything up to the high water mark, 
everything above the high water mark would be included in the 
Gulf Island National Seashore.
    With this said, I ask that the bill include clarifying 
language that ensures that the State boundary of this island is 
determined by the current mean high tide line of the 
Mississippi Sound and the Gulf of Mexico and any tidally 
affected streams emptying into those bodies of water. Again, 
this is Mississippi State law. Everything below this line is to 
remain under the jurisdiction of the Secretary of State. 
Furthermore, it is intended that the agency currently referred 
to as the Mississippi Department of Marine Resources retain 
responsibility for determining fishing regulations around Cat 
Island.
    In conclusion, I wish to remind you of the opportunity 
before us today to preserve a major portion of this island in 
its natural state for public enjoyment and use. I respectfully 
request the Committee to do all it can do to expedite this 
legislation.
    I will go on in my remaining time to say that the major 
impetus for this is just the phenomenal growth of not just 
coastal America but coastal Mississippi. About 10 years ago, I 
was one of three sponsors of a bill that legalized gaming in 
Mississippi. We were in the throes of a recession. We thought 
that we could create 8,000 jobs by doing it. To date, that has 
led to the creation of about 50,000 jobs. It is now a $2 
billion business. People that we never dreamed would come to 
Mississippi and spend hundreds of thousands of dollars are now 
coming to Mississippi and spending $2 billion a year.
    When I was a high school teenager, about half of my 
graduating class had to move away in order to find jobs. That 
has changed. Instead of people moving away, we have a job for 
anybody who wants one. We have an incredible influx of people, 
incredible demands on our resources and, quite frankly, I would 
like to see this resource preserved in its natural state so 
that future generations could have the great benefit that I 
have had and my kids have had.
    To take it a step further, we are often asked--our 
constituents throw us a ringer in our town meetings, which you 
and I have been around for a while. We have had every tough 
question we could think of thrown at us. But one of the tougher 
questions I have had recently is what have you done to bring 
your folks closer to God. And I have got to admit that I was 
taken aback. I tried to come back with the lame excuse that I 
voted for the 10 Commandments being posted in public buildings, 
which tried to set a good example.
    But the bottom line is, if you look at what happened in 
Colorado and in most of those places, this happened in fairly 
urban areas. I think that a lot of this has to do with the fact 
that, in the urbanized areas, folks have gotten so far away 
from nature that they have lost the ability to see the hand of 
God. When I look at Cat Island, I see the hand of God. Whether 
it is a porpoise and her child or an osprey or something as 
strange looking as a horseshoe crab or an alligator, they are 
all out there.
    And I really think we could do the people of this Nation, 
in particular the people of Mississippi, a tremendous favor by 
taking one of the last remaining parcels in its true natural 
state and preserving it for perpetuity. This would include 
about 21,000 acres and leave the remaining 160 acres for the 
private property owners. I would certainly appreciate your 
assistance on this.
    Mr. Hansen. We thank our colleague from Mississippi for his 
testimony.
    [The prepared statement of Mr. Taylor follows:]

  Statement of Hon. Gene Taylor, a Representative in Congress fro the 
                           State of Missippii

    Good morning, Mr. Chaitrman and Members of the Committee. I 
am pleased to be before the Committee today, testifying on 
behalf of H.R. 254. I introduced this bill to adjust the 
boundary of the Gulf Islands National Seashore to include Cat 
Island. I have submitted a copy of this testimony to the 
Committee. I ask this document to be made part of the hearing 
record.
    I have been a life-long resident of the Gulf Coast, and as 
many residents of this area, I have had the good fortune of 
enjoying the natural beauty, physical resources and wildlife of 
this pristine island. I come here today to urge adoption of the 
portion of Cat Island the Boddie family offers, as willing 
sellers, to be included in the Gulf Islands National Seashore.
    The Gulf Island National Seashore was established by Public 
Law 91-660 on January 8, 1971 to preserve Petit Bois, Horn and 
East and West Ship Islands for public use and enjoyment because 
of their natural and recreational values. At that time, Cat 
Island was also considered for inclusion within this boundary. 
In fact, during a hearing held in June of 1970 regarding the 
establishment of this seashore, the Assistant Secretary for 
Fish and Wildlife, Parks, and Marine Resources testified before 
the Committee on Interior and Insular Affairs, Subcommittee on 
National Parks and Recreation that Cat Island offers an 
``ecological array of conditions which cannot be located 
anywhere else.'' The total uniqueness Cat Island offers makes 
it a key addition to the Gulf Island National Seashore. Cat 
Island is the last of the Gulf Islands to be publicly 
protected. I would like to see the majority of this island 
preserved for future generations to enjoy.
    Therefore, I come before the Committee today, Mr. Chairman, 
to urge adoption of H.R. 2541, with two exceptions. The first 
exception is to remove the Boddie family parcel and the 
existing privately owned subdivided lots on Cat Island from the 
proposed boundary of the Gulf Islands National Seashore. I 
insist on leaving these parcels out of the seashore boundary 
simply because this designated acreage is not being willingly 
offered for inclusion. I value the importance of this land to 
these owners.
    Secondly, I would like to bring to the Committee's 
attention that in July 1986, subsequent to the Gulf Islands 
National Seashore being established, the Supreme Court of 
Mississippi ruled on a case entitled Cinque Barmbini 
Partnership versus the State. In this case, the claimants 
brought action against the State of Mississippi to clarify 
title resulting from oil leases granted by the state. ``The 
supreme court held that (1) fee slimle title to all lands 
naturally subject to tidal influence inland to the current mean 
high water-mark is held by the State of Mississippi in trust, 
and (2) lands brought within the ebb and flow of tide by 
avulsion or by artificial or nonnatural means are owned by the 
record titleholders.'' With this said, I ask that this bill 
include clarifying language which ensures that the state 
boundary of this island is determined by the current mean high 
tide line of the Mississippi Sound and the Gulf of Mexico and 
any tidally affected streams emptying into those water bodies. 
Everything below this line is to remain under the jurisdiction 
of the Secretary of State. Furthermore, it is intended that the 
agency currently referred to as the Mississippi Department of 
Marine Resources retain responsibility for determining fishing 
regulations around Cat Island.
    In conclusion, I wish to remind you of the opportunity we 
have before us to preserve the major portion of this island in 
its natural state for public use and enjoyment. I respectfully 
request of this Committee on Merchant Marine and Fisheries 
Committee to do all it can to expedite this legislation through 
the Committee. I wish to thank the chairman and the Committee 
for the opportunity of appearing before you. This concludes my 
statement. I am prepared to respond to any questions you may 
have.

    Mr. Hansen. We will turn to our colleague from Guam, Mr. 
Robert Underwood, who is also a member of the full Resources 
Committee.
    Mr. Taylor. Mr. Chairman, if I may, one last request is we 
have a number of letters of support for this, including an 
editorial from the Mississippi Gulf Coast's largest newspaper 
just yesterday, in favor of the proposal that I would like to 
include for the record.
    Mr. Hansen. Thank you. Without objection, it will be 
entered into the record.
    [The information follows:]
    Mr. Hansen. Mr. Underwood.

STATEMENT OF HON. ROBERT UNDERWOOD, A DELEGATE IN CONGRESS FROM 
                     THE TERRITORY OF GUAM

    Mr. Underwood. I thank you for the opportunity to provide 
testimony on H.R. 1866, which encourages and allows for public 
participation to appeal of land management decisions made by 
the National Park Service and the United States Fish and 
Wildlife Service.
    As you are well aware, Mr. Chairman and other members of 
the Committee, the government of Guam, like other State and 
local governments and private citizens, are subject to land 
acquisition methods employed by the U.S. Fish and Wildlife 
Service. In March, 1994, the Fish and Wildlife Service declared 
more than 20 percent of Guam a national wildlife refuge overlay 
or approximately 24,500 acres island-wide. Eighty-three percent 
of the refuge had been in the possession of the U.S. military, 
14 percent owned by the government of Guam, and by the 
remaining 3 percent by private landowners. The majority of the 
acreage is located in the northern end of the island. The 
refuge was established under the guise of protecting Guam's 
endangered bird populations from extinction.
    Since the establishment of that refuge, Guam has received a 
considerable amount of attention and publicity about the 
decline of the island's bird populations. Books, documentaries, 
magazine articles, academic papers and even websites have been 
published or produced to inform the American public about the 
decimation of Guam's bird population and its effects on the 
wildlife ecosystem. I believe that it has been accepted by not 
only the scientific community but by the American public in 
general that the extinction of many of Guam's indigenous bird 
species is a direct result of the introduction of the brown 
tree snake which is an invasive species introduced to Guam in 
the 1950s along with military cargo.
    The designation of a wildlife refuge which ``roped off'' 
land for the Fish and Wildlife Service essentially preempted 
many opportunities for Guam to regain title to these properties 
which the military had been considering as declaring as excess 
property. The land was originally taken in the immediate post-
World War II era to ensure national security.
    The island of Guam would have been better served if the 
Fish and Wildlife Service did everything necessary to eradicate 
the brown tree snake rather than acquiring precious lands that 
are needed by the people of Guam. It doesn't take a scientific 
community and, in fact, many biologists working for the 
Department of the Interior acknowledge that it is the abundance 
of the brown tree snake and not land preservation efforts which 
were needed to reverse the decline of Guam's native birds. So, 
in short, this was a problem of an invasive species rather than 
a lack of critical habitat.
    Mr. Chairman, I believe Fish and Wildlife Service has too 
much land acquisition authority and, in particular, there are 
very few opportunities to challenge the manner in which they 
establish the refuge in Guam. Indeed, I am working on 
legislation to find a way to balance the approach to this 
wildlife refuge.
    I am not adverse to more extreme measures if they are 
necessary. However, I believe that your approach, Mr. Chairman, 
H.R. 1866, is a reasonable and fair beginning to ensure that 
all interested parties are taken into account before private or 
public land is taken in the name of preservation. This 
legislation asks no more than what is required by the U.S. 
Forest Service or the Bureau of Land Management. This 
legislation is a fair proposal, and I give it my full support. 
I promise that I will work with the chairman and other members 
of the Subcommittee to make the legislation workable.
    Had this process been in place for Guam rather than a 
couple of perfunctory public hearings on it, we would have 
had--the local community would have had a fair chance at 
explaining its perspective on this manner.
    So, with that, I appreciate the opportunity to share this 
particular story. I wish that this legislation would be 
retroactive, but it has fallen on my watch to attempt to deal 
with this very tragic situation regarding public lands in Guam. 
Thank you.
    Mr. Hansen. Thank you. I appreciate the gentleman's support 
and his comments.
    [The prepard statement of Mr. Underwood follows:]

Statement of Hon. Robert A. Underwood, a Delegate in Congress from the 
                           Territory of Guam

    Mr. Chairman:
    Thank you for the opportunity to provide testimony on H.R. 
1866, which encourages and allows for public participation to 
appeal land management decisions made by the National Park 
Service and the United States Fish and Wildlife Service.
    As you are well aware Mr, Chairman, the Government of Guam 
like other state and local governments and private citizens are 
subject to land acquisition methods by the U.S. Fish and 
Wildlife Service. In March 1994, The Fish and Wildlife Service 
declared more than 20 percent of Guam a national wildlife 
refuge overlay or approximately 24,562 acres island wide, 83 
percent of the refuge had been in the possession of the U.S. 
Military, 14 percent ovined by the Government of Guam and the 
remaining 3 percent by private landowners The majoriry of the 
acreage is located in, the northern end of the island. The 
refuge was established under the guise of protecting Guam's 
endangered bird populations from extinction.
    Since the establishment of the refuge, Guam has received a 
considerable amount of attention from the decline of the 
island's bird populations. Books, documentaries, magazine 
articles, academic papers, and even websites have been 
published or produced to inform the American public of the 
decimation of Guam's wildlife eco-system. I believe it has been 
accepted by not only the scientific community but the American 
public that the extinction of many of Guam's indigenous bird 
species is a result of the introduction of the brown tree snake 
which is an invasive species introduced to Guam in the 1950's. 
The designation of a Wildlife Refuge which ``roped off'' land 
for the Fish and Wildlife Service, essentially preempting any 
opportunity for Guam to regain title to these properties wbich 
had been taken to ensure national security in the post war era, 
was unnecessary.
    The island of Guam would be better served if the Fish and 
Wildlife Service did everything necessary to eradicate the 
brown tree snake rather than acquiring precious lands which are 
needed by the people of Guam. It doesn'ttake a scientific 
community to figure out it's the abundance of the brown tree 
snakes and not only land preservation efforts which are needed 
to reverse the decline of Guam's native birds.
    Mr. Chairman, I believe Fish and Wildlife Service has too 
much land acquisition authority and the manner in which they 
established the refuge in Guam was wrong. Indeed I am working 
on legislation to find an equitable solution to this problem 
but I am not averse to more extreme measures--if necessary. 
However, I believe that H.R. 1866 is a reasonable and fair 
approach to ensure that all interested parties are taken into 
account before private or public land is taken in the name of 
preservation. This legislation asks no more than what is 
required by the U.S. Forest Service or the Bureau of Land 
Management. This legislation is a fair proposal and I give it 
my full support.

    Mr. Hansen. Questions for our colleagues?
    The gentleman from Puerto Rico.
    Mr. Romero-Barcelo. I have one for my colleague from Guam. 
Are there any objections that you know of from the Department 
of the Interior to this legislation, and, if so, what are their 
objections? Do you know?
    Mr. Underwood. I can't speak for what their objections 
would be, but I would assume that anything that reduces their 
authority or extends the time line for appeals would certainly 
be objected to. In this particular instance, I think they were 
fully aware of the level of objection to this particular effort 
in Guam. As a consequence, they did it in a very rapid manner 
with as little public input as possible.
    Mr. Romero-Barcelo. We have had the same experience at 
home. I think once in a while we look at this very, very 
carefully, and we appreciate your testimony and your support of 
this.
    Mr. Underwood. If I could just add to that, the frustrating 
part of it for us was the science behind it was clearly on the 
side of dealing with the invasive species which is the brown 
tree snake, which is almost legendary now in light of--I think 
when you do an article search on Guam, some 30 or 40 percent of 
the articles are on the brown tree snake. That was clearly the 
problem.
    Fish and Wildlife took control of some 300 acres for a 
headquarters, declared this wildlife refuge, and then refuses 
to spend money on eliminating the brown tree snake, leaves it 
to special appropriations to fight the brown tree snake but 
continues to spend money on its own to work on perfecting this 
refuge. So the net result is we see many more Fish and Wildlife 
personnel than we see birds now, not as many as snakes.
    Mr. Romero-Barcelo. Do local authorities have free access 
to these lands to deal with the problem of the brown tree snake 
or not?
    Mr. Underwood. There are other Federal programs to deal 
with the brown tree snake, but they were done by special 
appropriations as add-ons. I have consistently argued that 
those funds that are used to fight the brown tree snake should 
come from Fish and Wildlife because their objective was to deal 
with the issue of the endangered species.
    Mr. Romero-Barcelo. Thank you.
    Mr. Hansen. The gentleman from Nevada, Mr. Gibbons.
    Mr. Gibbons. Thank you very much, Mr. Chairman. I 
appreciate your leadership in having this hearing today, and I 
appreciate our colleagues and their testimony this morning.
    I would ask the gentleman from Guam and our friend, Mr. 
Underwood, whether he thinks the territory of Guam could better 
handle the decision-making with regard to the control of the 
brown tree snake versus the Federal Government's intervention 
in this issue.
    Mr. Underwood. I think a collaborative effort is necessary 
because it involves Customs. It involves moving--the potential 
of the brown tree snake moving on to Hawaii and other places.
    But in this particular instance it has been most 
frustrating that the agency designed to deal with the 
endangered species has not come to the table with the resources 
to confront it. What we are left with is we are now left to 
advocate on our own through other--including some Department of 
Defense money--to help fight the brown tree snake.
    Mr. Gibbons. Thank you.
    Mr. Chairman, I have no further questions.
    Mr. Hansen. The gentleman from Colorado, Mr. Udall.
    Mr. Mark Udall. Thank you, Mr. Chairman. I have no 
questions at this time.
    Mr. Hansen. The gentleman from Washington, Mr. Inslee.
    Mr. Inslee. Mr. Taylor, I am reading a comment from George 
Shloegel in our file. He is extolling the virtues of Cat 
Island. It says here, quote, Just last month our own 
Congressman, Gene Taylor, and his daughter Emily landed a 
monster red fish and played a hand-over-hand line much like the 
Old Man and the Sea and presented a delicious meal to their 
entire family, close quote.
    Now, I realize that you are not under oath, but how big was 
that fish? Could you just show us?
    Mr. Taylor. It was indeed the biggest fish I ever caught. 
It was my daughter Sarah.
    Mr. Inslee. I don't have a question. I just have a comment 
for Mr. Taylor.
    Your comments about the importance of seeing the hand of 
God in nature--I have been in Congress for 3 years, off and on. 
That is was the most eloquent statement I have heard on 
environmental issues since I have been here. I appreciate your 
comments. I think that we should share it with other Members.
    Mr. Taylor. I am rarely accused of being eloquent.
    Mr. Inslee. That is why I noted it. I appreciate what you 
had to say.
    Mr. Underwood, you are getting some help because last night 
on the Learning Channel they had a story on the brown tree 
snake on your island, so you are getting a little help. Thank 
you.
    Mr. Underwood. I am not sure that I like that kind of help.
    Mr. Hansen. Mr. Taylor, what is it that you envision for 
Cat Island?
    Mr. Taylor. Mr. Chairman, as I mentioned before, and I 
really don't know who was behind it back then, my hunch would 
be then Congressman Colmer, who was a very influential member 
of the Rules Committee, Senator Eastland and Senator Stennis, I 
don't know who was smart enough to do it. I guess all of them. 
But they took several approaches to the islands that were 
purchased in the Gulf Island Seashore.
    One of them has a Civil War fort that was used as a prison 
during the Civil War. That island is Ship Island. It has a 
regular passenger service to it, and I would presume probably 
over 100,000 people a year go out there and swim on the 
beaches, tour the fort. They have some beautiful boardwalks out 
among the marshes so people can see the alligators, the egrets, 
get an idea of what nature was like.
    Another island, Horn Island, was kept primarily in a 
primitive state. They allow for primitive camping out there. 
They allow folks to sail out there, anchor off and swim off the 
beaches, basically do everything short of hunting out there, if 
I am not mistaken. I would leave that up to the Park Service as 
to what they think the market is for the best use of this 
island. Either one would be wonderful, as far as I am 
concerned. It is not very far from Ship Island where the vast 
majority of tours go by way of the regular passenger service.
    But I think with the incredible growth of the Mississippi 
Gulf Coast--and again, no one anticipated it. I was one of the 
sponsors of the bill, and it is 50 times bigger than anyone 
guessed it could have been. I think we should leave it to the 
Park Service, the flexibility to do one or the other depending 
on what they think the market is. If they find that Ship Island 
has gotten so crowded that people are tripping over each other, 
much like the Jersey Shore, I am sure they would want the 
option of doing with Cat Island what they did with Ship Island.
    Mr. Hansen. Do people go over there in their private boats 
on those islands that are close to the mainland for recreation 
purposes?
    Mr. Taylor. I was out at Ship Island in July when they have 
an annual get-together as a fund raiser for the island. I would 
estimate that at least 50,000 people were out there. Most of 
them got out there in their private boats.
    We have a really great thing about the Mississippi Gulf 
Coast, is that we have these barrier islands that range 
anywhere from about 7 to 10 miles off shore that protect us 
from the big waves of the Gulf of Mexico. So even people with 
fairly small boats, 14-, 15-, 16-foot boats, can access them 
knowing they are not going to encounter too great a sea.
    We have a very good presence of the United States Coast 
Guard. We have an excellent National Weather Service. It is 
something that truly the average Joes of south Mississippi can 
use.
    Again, to the compliment of the Boddie family--I have only 
recently gotten to meet them--I have been going out there since 
I was a kid. They have been very good about saying if you stay 
on the beach and don't come in where our things are, they kind 
of just let people do it.
    Mr. Hansen. You say 7 to 10 miles from the mainland?
    Mr. Taylor. Yes, sir. But, again, it is in a place where 
the seas rarely get as high as this desk top.
    Mr. Hansen. So small boats can go through there unless 
inclement weather? They can make it all right?
    Mr. Taylor. Yes. And the beauty of it is it is accessible 
so that almost anyone who can afford a boat or has a friend who 
has a boat can get to Ship Island. Again, in the case of Ship 
Island, which I am going to guess is 5 miles to the east, there 
is a regular passenger service available through a charter to 
the----
    Mr. Hansen. Your bill does not dictate to the Park Service 
or any other entity what they should do with it. You are 
leaving it up to them. So if they decided that the Marriott 
Corporation should put three hotels you would go along with 
that?
    Mr. Taylor. That is prohibited, if I am not mistaken, from 
the 1970s law.
    Mr. Hansen. If they decided to put it in wilderness, would 
you feel okay with that?
    Mr. Taylor. Again, that is they have done with Horn Island 
and allowed for primitive camping. I would think that, as far 
as the Park Service is concerned, that would be the low-cost 
option for them, the easiest for them to maintain. I would love 
to give them that option.
    Again, since our tourism industry has just exploded, they 
may find that they need additional beaches made available to 
the public. They may want to establish a passenger service to 
that island they way they have at Ship Island. That is their 
call. I would like to see it included. I would like to make 
those opportunities available to them.
    Mr. Hansen. From the map it appears that it has quite a 
nice beach along that one side; is that correct?
    Mr. Taylor. It is a phenomenal beach. I have seen 
everything from manta rays, dolphins. I really did catch the 
largest red drum of my life just a couple of weeks ago. It is 
where most of the crabs from the Mississippi Sound go there 
during the summer to lay their eggs. You literally will go out 
there on a day where you can hardly take a step for fear of 
stepping on crabs. The only horseshoe crabs that you see 
anymore in the Gulf Coast are out there. The white albino crabs 
that you see on the sand, you normally think of as down in the 
Bahamas, you see out there. Whitetail deer, osprey--the Boddies 
have been incredible stewards of this resource.
    Mr. Hansen. What is your estimation of cost? Do you have 
one yet?
    Mr. Taylor. Yes. The rough estimate--the Gulf Island 
National Seashore is in the process of having a survey done. If 
I am not mistaken, they are going to have two surveys done, 
just to comply with the law. The estimate is somewhere in the 
$28 million range. But if I may say, that is not out of line.
    Mr. Gibbons is here. A lot of the folks that have casinos, 
some of those casinos are paying in rents from people $5 
million a year for the equivalent of half a city block on the 
waterfront. So $28 billion dollar compared to that, those are 
the folks who really can afford to buy this island.
    The Boddie family contacted me this summer and said, we 
have heard some of their proposals, and we have decided that 
the best long-term use for this island is to preserve it, and 
we would like to sell it. They could sell it either way. They 
can get a lot of money for it either way. It is their wishes 
that it be preserved as it is. I would--I think it is a great 
opportunity for the people of this country, and I would like to 
honor their wishes.
    Mr. Hansen. Where does it get the name Cat Island?
    Mr. Taylor. I am told that when Bienville and D'Iberville, 
the French explorers that first explored the Mississippi Gulf 
Coast around 1699, were working their way from Florida to what 
they hoped would be the mouth of the Mississippi River--it is 
fairly shallow around here, so a lot of it had to be done kind 
of touchy-feely to keep from running aground. When they passed 
the island, from a distance they saw a large number of raccoons 
which are still on the island. From a distance, they mistook 
them for cats. Hence the name Cat Island.
    Mr. Hansen. Always a story on those names, isn't there?
    Mr. Underwood, you are of the opinion that the Fish and 
Wildlife is spending the money that they should have been using 
to take care of the birds and for the brown tree snake, and the 
people of Hawaii are really kind of ticked off for you folks 
for transporting the tree snake in the undercarriage of the 
airplanes. Your comment regarding where the money is going.
    Mr. Underwood. Actually, let me clarify that. The Fish and 
Wildlife Service doesn't really put any funding into fighting 
the brown tree snake. It is done by special appropriations. The 
leader on that has been Senator Inouye who has appropriated 
some money from the Department of Defense to help in 
controlling the brown tree snake.
    My--I think the people of Guam could be ticked off for a 
lot of things. One, they could be ticked for the military 
planes that brought in the brown tree snakes to begin with. 
That is the first issue. But secondly is the fact that, under 
the guise of trying to help protect the endangered species, the 
birds, there has been more effort given by Fish and Wildlife 
towards dealing with property issues and land issues than the 
actual invasive species which have led to the decline of the 
birds.
    Obviously, one of the--I have always kidded both Senator 
Inouye and Senator Akaka, the fastest way for us to get 
attention is to take a dead snake and throw it on the tarmac 
over in Honolulu. That gets everyone excited.
    In reality, it is a serious problem, a serious public 
relations problem; and people of Guam are very much in favor of 
bringing back the bird species.
    I have recently gone to a little cleared-off area in the 
north of Guam trying to bring back what is known as the koko or 
the Guam rail. The Guam rail existed only in Guam. It is the 
only place in the word that it existed, and this flightless 
bird had been wiped out by the brown tree snake.
    Mr. Hansen. Always a problem.
    The way the 1973 bill reads, if you are very successful in 
eliminating the brown tree snake down to a certain extent it 
will then become endangered and we will have to appropriate 
millions of dollars to save it. I don't know whether we ever 
get the balance worked out, but someone around this place ought 
to be smart enough to figure out how to change the Endangered 
Species Act. In some people's opinion, it came from Mount Sinai 
and the hand of God wrote it, but it really has lot of flaws in 
it.
    With that frustration out of my way, let me say this. We 
appreciate the testimony of our two colleagues. We would 
welcome you to the dais if you would like to. And we will turn 
to the gentleman from Puerto Rico.
    Mr. Romero-Barcelo. Mr. Taylor, what if the Navy decided 
that one of the islands in the Gulf Coast of Mississippi was 
indispensable for national defense and they started using it 
for bombarding and maneuvers? How would the people around 
Mississippi feel about that?
    Mr. Taylor. Mr. Romero-Barcelo, I am of the understanding 
that during World War II portions of both this island and Horn 
Island were used to train dogs for the military. There is 
actually some chemical weapons testing out there, either on 
this island or Horn Island.
    I certainly understand where you are coming from. I have a 
very large Army tank range that I help to make better in my 
district where they do drop bombs in my district.
    As I have said before, we value our bases as great 
neighbors. I hope to go to Puerto Rico when we adjourn and see 
if I can't do a job of convincing the United States Navy to be 
better neighbors on Vieques.
    Mr. Romero-Barcelo. The difference there--we are getting 
into another subject, but the difference there is the community 
is involved in the base, and they get jobs in the base 
different from the situation in Vieques where the Navy is 
completely estranged from the people in Vieques.
    Mr. Taylor. I am going to do the very best I can, in my 
very best mumble, to----
    Mr. Romero-Barcelo. I know that. You have been very 
helpful. Thank you very much on that. You can be sure that we 
will also be very helpful to you in this, whatever we can do.
    Mr. Hansen. The gentleman from Nevada.
    Mr. Gibbons. Thank you, Mr. Chairman. I have just one 
question for Mr. Taylor.
    I noticed that the owners of Cat Island have requested the 
retention of a retained right for an in-holding within the 
island itself. Are you in support of their request for 
retention of an in-holding that would be within the area of the 
island but not included within the park boundaries?
    Mr. Taylor. Mr. Gibbons, let's remember, they have a number 
of people who have a lot of money who have offered to buy this 
island. Those people can do, since it is privately owned, 
anything they want with it all the way from razing it--they can 
do anything they want with it right now.
    They have offered to make about 2,100 acres available to 
the public. They have asked that they can keep for their 
children, since this has been in their family for almost a 
century, about 150 acres. About another 8 or 10 acres are owned 
by other individuals in smaller lots.
    You and I, I think, are very much alike in that we don't 
want to take anyone's land. They are willing sellers. They have 
told me that they would like to retain that 150 acres for their 
children and children's children, but also with the knowledge 
and working with the Gulf Island National Seashore to possibly 
one day construct a small lodge, 8 to 15 rooms, where folks 
could come out and have eco-tours. I see that as a great idea.
    We both have districts where a lot of people come for the 
purposes of gambling. But they also come to do a lot of other 
things. In the case of your district, to play golf, see the 
mountains, see the desert. In the case of south Mississippi, we 
have the great resource of the Gulf of Mexico. I think that the 
more assets that already exist in south Mississippi that we can 
make available to the public the better.
    So if they want to give the opportunity to folks that don't 
have a boat to go out to Cat Island and spend a few days and 
see the deer and the alligators, the ospreys and the horseshoe 
crabs, the dolphins, I think it is a wonderful idea.
    Mr. Gibbons. Thank you, Mr. Taylor.
    Mr. Chairman, I know that we have had discussions in this 
Committee in the past about in-holdings in the park and other 
areas and some of the problems that has been raised by the park 
commission over such things. I would hope that we can make it 
clear that the wishes of the owners in this regard to their 
property making this a public island more or less would be 
recognized down the road. I am afraid what we will see is an 
erosion of that support for private ownership within that 
island after a number of years.
    Mr. Taylor. Mr. Gibbons, to the point, if I may, only 
yesterday I received a letter from someone who owns about 80 
acres on one of the islands previously purchased back in the 
late 1960s, early 1970s. Obviously, it has not been a problem 
for them, that they have retained title to that for these many 
years.
    We are--I would hope that you would ask the same question 
of the Boddie family. They have asked for very specific 
language that would allow them to do just what we talked about. 
I hope the bill would spell that out so they don't have to keep 
going to the expense of coming back and forth to Washington, 
that we could get this straight and have it as part of the 
proposal that your Committee votes on.
    Mr. Hansen. Further questions for our colleagues? If not, 
we will excuse you. Actually, if you would like to join us on 
the dais, we will turn to the first panel.
    Our first panel is William Shaddox, Acting Associate 
Director for Professional Services, National Park Service; Cala 
Boddie-Colbert, Cat Island, Mississippi; and George Schloegel, 
Friends of the Gulf Island National Seashore.
    If these three folk would like to come up, we would 
appreciate it.
    Thank you.

  STATEMENT OF WILLIAM SHADDOX, ACTING ASSOCIATE DIRECTOR FOR 
          PROFESSIONAL SERVICES, NATIONAL PARK SERVICE

    Mr. Hansen. Mr. Shaddox, we appreciate you being with us, 
and we will turn to you first.
    You folks notice this little machine in front of you. It is 
a new idea that they have come up with around here. It has on 
it: Talk, sum up, and stop. There is the time just ticking 
away. We appreciate it if you would try to stay within your 
time. We realize that maybe you have got to go over for a few 
minutes, and that is all right. We now fine you for $10 a 
minute for every minute you go over. Maybe we would waive that 
in this hearing.
    The floor is yours, sir.
    Mr. Shaddox. Thank you, Mr. Chairman and members of the 
Committee, for allowing us to appear and testify on H.R. 2541 
today to adjust boundaries of Gulf Island National Seashore to 
include Cat Island, Mississippi.
    Mr. Chairman, I would like to submit my statement for the 
record, if you please. Then I could summarize.
    Mr. Hansen. Without objection, your entire testimony will 
be in the record, as it will for all of our witnesses today. If 
you would like to summarize, that is perfectly all right. We 
understand.
    Mr. Shaddox. Thank you, Mr. Chairman.
    First, Mr. Chairman, I would like to thank Congressman 
Taylor for all of his hard work to bring this bill to the 
attention of the Congress. I would like to thank Trust Republic 
Lands for all of the hard work that they have done in this 
measure. I would certainly love to thank the Boddie family for 
their willingness to step forward to help preserve this 
wonderful resource, this beautiful island.
    The Department supports this legislation, Mr. Chairman, 
with the amendments described later in this testimony. The 
significant natural resources of the island and its great 
potential for visitor use make this island a highly desirable 
addition to the national seashore.
    The landowners prefer to have the island added to the 
national seashore, and to that end we have been discussing 
terms of conveyance with the Trust for Public Lands and the 
National Park Service. Meanwhile, because development pressures 
along the coast of Mississippi are intensifying, the owner is 
likely to get very attractive competing offers from land 
developers. We hope that Congress would seize what could turn 
out to be a short-lived opportunity to obtain this magnificent 
resource for the benefit of the public by passing this 
legislation enabling the National Park Service to acquire the 
island. Land acquisitions, however, would be subject to 
National Park Service priorities and the availability of 
appropriations.
    While we agree with the intent of H.R. 2541, we recommend 
two changes to the legislation as follows. If you will bear 
with me, Mr. Chairman, this is somewhat lengthy, but I will get 
through it as quickly as possible.
    First, section 1, subsection 3, would add to Gulf Islands 
and the water area adjacent to the shoreline that is not owned 
by the State of Mississippi. Because the State actually has 
title to all submerged lands below the mean high tide line, the 
boundary would end at the high tide line. The beach area below 
the high tide line and the submerged lands, which are owned by 
the State, would be excluded.
    This proposed boundary is different from the boundaries 
around the other islands within the seashore, which include the 
adjacent submerged lands for one mile from the shoreline or to 
the south edge of the Intercoastal Waterway, whichever is 
closer.
    We recommend that section 1, subsection 3, be amended to 
establish a seaward boundary for Cat Island that is consistent 
with those of the other national seashore islands. We are 
concerned that if the boundary stops at the high tide line, it 
may pose management problems. For example, the Park Service 
would not be able to establish and enforce rules for 
recreational watercraft immediately offshore, as it does for 
other national seashore islands.
    We understand that State officials oppose including State 
submerged lands in the boundary. However, including this area 
in the boundary would not change the ownership of the submerged 
lands. The State would retain ownership. Section 2(a)(6) of 
Public Law 91-660, the original Gulf islands legislation, makes 
clear that the National Park Service may acquire only with the 
consent of the State. The State did in fact convey to the Park 
Service ownership of the submerged land surrounding the other 
Gulf Islands nearly 30 years ago.
    If Mississippi wishes to retain title to the submerged 
lands adjacent to the island, establishing a boundary one mile 
out to see would make it possible for the State to enter into 
an agreement for concurrent jurisdiction of the area with the 
National Park Service. That could be a real advantage to both 
the State and the Park Service. Under such an agreement, it 
would be possible for the State to be relieved of the burden it 
would otherwise continue to bear for management of the water 
surrounding the island, while the Park Service would have a 
greater ability to protect the island's resources and the 
visiting public. But unless the boundary is extended beyond the 
high tide line, the option of entering into such a management 
agreement would not be available.
    Furthermore, should the State ever decide that it wanted to 
transfer ownership of the water within the one mile boundary to 
the Park Service, there would be no need for new legislation to 
adjust the boundary.
    Two alternative maps depicting the island as part of Gulf 
Islands National Seashore are being prepared by the Park 
Service's Regional Office. One depicts the island with a 
boundary one mile seaward, as we are recommending, the other 
with a boundary at the high tide line, as described in H.R. 
2541 as introduced, and we will submit both to the 
Subcommittee.
    Secondly, H.R. 2541 anticipates the purchase of the island 
but does not include an increase in the authorization of 
appropriations for land acquisition. The last authorization for 
the acquisition at Gulf Islands, enacted in 1976, raised the 
ceiling to $22,162,000. Over the years, Congress has actually 
appropriated more than that amount for land purchases in the 
islands. Because we do not yet have a cost estimate for the 
approximately 2,200 acres that would be purchased if this 
legislation is approved, we recommend that the legislation 
authorize the appropriation of such sums as necessary for land 
acquisition. Furthermore, the language should be clear that the 
submerged land, as well as land and water, are eligible for 
acquisition, as that would help avoid confusion over the status 
of submerged lands.
    In summary, we believe that Cat Island would be a very 
valuable addition to the Gulf Island National Seashore, and we 
urge the Subcommittee to act on this legislation as quickly as 
possible before we lose the opportunity to add this wonderful 
property to the National Park Service.
    Mr. Chairman, this concludes my remarks; and I would like 
to answer any questions that you or the Subcommittee may have.
    [The prepared statement of Mr. Shaddox follows:]

      Statement of William Shaddox, Acting Associate Director for 
              Professional Services, National Park Service

    Mr. Chairman, thank you for the opportunity to testify on 
H.R. 2541, to adjust the boundaries of the Gulf Islands 
National Seashore to include Cat Island, Mississippi.
    The Department supports this legislation, with the 
amendments described later in the testimony.
    H.R. 2541 would revise the boundary of Gulf Islands 
National Seashore established in 1971, by Public Law 91-660, to 
add Cat Island to the series of barrier islands and onshore 
units in Mississippi and Florida that comprise the national 
seashore. Cat Island, which lies about eight miles south of 
Gulfport, is the western-most barrier island of the group of 
five islands off the eastern half of the Mississippi coast. 
This almost entirely undeveloped, 2,350-acre, T-shaped island 
has more than 21 miles of shoreline varying from sea-level 
beaches to 40-foot high sand ridges.
    Cat Island contains a greater diversity of vegetation and 
wildlife than any of the islands currently within the national 
seashore. Habitats include saltwater marsh, ephemeral saltwater 
marsh, freshwater marsh, palmetto-slash pine forest, and live 
oak stands. The only development on the entire island consists 
of three frame dwellings, some man-made canals, and relics of 
military use during World War II. The significant natural 
resources of the island, and its great potential for visitor 
use, make this island a highly desirable addition to the 
national seashore.
    When plans were under way to establish Gulf Islands 
National Seashore three decades ago, the Administration 
proposed to include Cat Island in the boundary. However, due to 
opposition to its inclusion by the owner, Congress omitted the 
island from the final legislation. The island's principal owner 
now wishes to sell all but 150 acres of the island.
    The owner prefers to have the land added to the national 
seashore and, to that end, has been discussing terms of 
conveyance with the Trust for Public Land and the National Park 
Service. Meanwhile, because development pressures along the 
coast of Mississippi are intensifying, the owner is likely to 
get very attractive competing offers from land developers. We 
hope that Congress will seize what could turn out to be a 
short-lived opportunity to obtain this magnificent resource for 
the benefit of the public by passing this legislation, enabling 
the National Park Service to acquire the island. Land 
acquisitions, however, would be subject to National Park 
Service priorities and the availability of appropriations.
    While we agree with the intent of H.R. 2541, we recommend 
two changes to the legislation, as follows:
    First, Section 1(3) would add to Gulf-Islands National 
Seashore Cat Island and the water area adjacent to the 
shoreline that is not owned by the State of Mississippi. 
Because the State actually has title to all submerged lands 
below the mean high-tide line, the boundary would end at the 
high-tide line. The beach area below the high-tide line and the 
submerged lands, which are owned by the state, would be 
excluded.
    This proposed boundary is different from the boundaries 
around the other islands within Gulf Islands National Seashore, 
which include the adjacent submerged lands for one mile from 
the shoreline or to the south edge of the Intercoastal 
Waterway, whichever is closer.
    We recommend that Section 1(3) be amended to establish a 
seaward boundary for Cat Island that is consistent with those 
of the other national seashore islands. We are concerned that 
if the boundary stops at the high-tide line, it may pose 
management problems. For example, the National Park Service 
would not be able to establish and enforce rules for 
recreational watercraft immediately off shore, as it does for 
the other national seashore islands.
    We understand that State officials oppose including State 
submerged lands in the boundary. However, including this area 
in the boundary would not change the ownership of the submerged 
lands. Section 2(a) of Public Law 91-660, the original Gulf 
Islands legislation, makes clear that the National Park Service 
may acquire State property only with the consent of the State. 
The State did in fact convey to the Park Service ownership of 
the submerged lands surrounding the other gulf islands nearly 
30 years ago.
    If Mississippi wishes to retain title to the submerged 
lands adjacent to Cat Island, establishing a boundary one mile 
out to sea would make it possible for the State to enter into 
an agreement for concurrent jurisdiction of the area with the 
National Park Service. That could be a real advantage both to 
the State and the National Park Service. Under such an 
agreement, it is possible that the State could be relieved of 
the burden it would otherwise continue to bear for management 
of the water surrounding the island, while the Park Service 
would have a greater ability to protect the island's resources 
and the visiting public. But unless the boundary is extended 
beyond the high-tide line, the option of entering such a 
management agreement will not be available.
    Furthermore, should the State ever decide it wanted to 
transfer ownership of the water within the one-mile boundary to 
the National Park Service, there would be no need for new 
legislation adjusting the boundary.
    Two alternative maps depicting Cat Island as part of Gulf 
Islands National Seashore are being prepared by the Park 
Service's Southeast Regional Office. One depicts Cat Island 
with a boundary one-mile seaward, as we are recommending, the 
other with a boundary at the high-tide line, as described in 
H.R. 2541 as introduced. We shall submit both to the 
Subcommittee.
    Second, H.R. 2541 anticipates the purchase of Cat Island, 
but does not include an increase in the authorization of 
appropriations for land acquisition. The last authorization for 
land acquisition at Gulf Islands, enacted in 1976, raised the 
ceiling to $22,162,000. Over the years, Congress has actually 
appropriated more than that amount for land purchases there. 
Because we do not yet have a cost estimate for the 
approximately 2,200 acres that could be purchased if this 
legislation is approved, we recommend that the legislation 
authorize the appropriation of ``such sums as necessary'' for 
land acquisition. Furthermore, the language should be clear 
that submerged lands, as well as land and water, are eligible 
for acquisition, as that will help avoid confusion over the 
status of submerged lands.
    In summary, we believe that Cat Island would be a very 
valuable addition to Gulf Islands National Seashore, and we 
urge the Subcommittee to act on this legislation as quickly as 
possible before we lose the opportunity to add this wonderful 
property to the National Park System.
    Mr. Chairman, that concludes my remarks. I would be pleased 
to answer any questions you or other members of the 
Subcommittee may have.

    Mr. Hansen. We have, apparently, a couple of votes on right 
now. We will have to see what they are and determine whether we 
would want this kind of recess for just a moment.
    There is just one on the rule and just a general vote. 
Possibly it would be better if we recessed for just a few 
minutes. We will run over and come right back. I would urge the 
members of the Committee to come right back, and we will get 
right back to the next testimony.
    We will stand in recess.
    [Recess.]
    Mr. Hansen. The meeting will come to order.
    We have no control over things such as votes going on. We 
just have to go. That vote ended. I am sure the members will be 
coming back.
    We will now turn to Cala Boddie-Colbert as our next 
witness.

    STATEMENT OF CALA BODDIE-COLBERT, CAT ISLAND, MISSIPPII

     Ms. Boddie-Colbert. I am Cala Boddie-Colbert. I am here 
together with my brother and sister. Together with our cousin 
and our nine children, we own all but six acres of Cat Island.
    As you can see from the map over there, it is a T-shaped 
island approximately 7 miles south of Gulfport, Mississippi. 
The island has been in my family for almost 90 years. It has 21 
miles of shoreline and it has pristine views and over three 
miles of totally undeveloped white gulf sand beach.
    The incredible economic growth on the Gulf Coast in recent 
years has put us under intense pressure to decide between 
preserving the island and developing it. We have come to the 
conclusion that, if we are compensated fairly, we would greatly 
prefer to see the majority of the island preserved in its 
natural state. We think that the National Park Service has done 
an excellent job of managing the Mississippi barrier islands 
that are currently in the Gulf Islands National Seashore. For 
that reason, we believe that the seashore is the logical entity 
to preserve and manage the majority of Cat Island.
    But our children are the fifth generation of our family to 
love Cat Island, and it is very important to us that this 
relationship should continue. Therefore, since we were first 
approached by the National Park Service in May, 1998, about the 
possibility of including Cat Island in the seashore, our 
discussions with the Park Service and with the Trust for Public 
Lands concerning an option which it could exercise on behalf of 
the Park Service, it has always been based on the premise that 
our family would retain approximately 6 percent of Cat Island 
in fee simple ownership. We have voluntarily agreed that we 
will place substantial government restrictions on this family 
land once the remainder of the island has been transferred to 
the Park Service. However, we did not contemplate and we have 
not agreed to the inclusion of this family land within the 
boundaries of the Gulf Island National Seashore.
    We completely support the intent of H.R. 2541, but we ask 
that the Subcommittee modify the bill, as Congressman Taylor 
asked, to remove our family land and to remove the existing 
privately owned subdivided lots from the proposed boundary 
amendment to the Gulf Island National Seashore. If the bill is 
amended to that effect, my family will wholeheartedly support 
it.
    The reserved rights that we have negotiated with the Park 
Service will allow us to build houses for ourselves and our 
children and construct a small ecologically-oriented lodge on 
the acreage we will retain. The Park Service has agreed that 
this type of responsible and limited development is consistent 
with its management plans for Cat Island. A copy of the 
proposed reserved rights and restrictions that we have 
negotiated with the Park Service, a map showing the location of 
our family parcel, and a plat of the existing subdivided lots 
on the island are included with our written statement. A legal 
description of the family parcel is being submitted for the 
record.
    We think that the preservation of 94 percent of Cat Island 
in its natural state for public use by future generations is in 
everyone's best interests. But because we want to keep a small 
part of Cat Island for ourselves, our children, and we hope for 
their children, and we also want to ensure the rights of the 
existing lot owners, I do ask you to amend H.R. 2541 to exclude 
our family's retained land and the existing other privately 
owned property on the island from the proposed boundary of the 
Gulf Island National Seashore.
    Thank you.
    Mr. Hansen. We thank you.
    [The prepared statement of Ms. Boddie-Colbert follows:]
    [GRAPHIC] [TIFF OMITTED] T4045.010
    
    [GRAPHIC] [TIFF OMITTED] T4045.011
    
    [GRAPHIC] [TIFF OMITTED] T4045.012
    
    [GRAPHIC] [TIFF OMITTED] T4045.013
    
    [GRAPHIC] [TIFF OMITTED] T4045.014
    
    [GRAPHIC] [TIFF OMITTED] T4045.015
    
    [GRAPHIC] [TIFF OMITTED] T4045.016
    
    [GRAPHIC] [TIFF OMITTED] T4045.017
    
    [GRAPHIC] [TIFF OMITTED] T4045.018
    
    [GRAPHIC] [TIFF OMITTED] T4045.019
    
    [GRAPHIC] [TIFF OMITTED] T4045.020
    
    [GRAPHIC] [TIFF OMITTED] T4045.021
    
    Mr. Hansen. Mr. George Schloegel, I hope.

  STATEMENT OF GEORGE SCHLOEGEL, FRIENDS OF THE GULF ISLANDS 
                       NATIONAL SEASHORE

    Mr. Schloegel. Thank you, Mr. Chairman.
    Mr. Chairman, members of the Committee, my name is George 
Schloegel. I am 43 year employee of the Hancock Bank, 
headquartered in Gulfport. I represent the Friends of the Gulf 
Islands National Seashore, a broad-based volunteer nonprofit 
organization dedicated to the preservation and enhancement and 
operation of the barrier islands that are owned by the Federal 
Government located in the Mississippi Sound and the Gulf of 
Mexico and visited by approximately 4\1/2\ million people 
annually.
    By way of background, my experience with the Gulf Islands 
goes back several generations. My father, Joseph A. Schloegel, 
Sr., personally led the effort to keep Fort Massachusetts from 
being destroyed by the encroaching sea in the early 1930s. I 
was a part of the effort from 1965 to 1971 to have the islands 
transferred from private to public ownership. I am cofounder 
and chairman emeritus of the Friends of the Gulf Island 
National Seashore. I serve as chairman of the reconstruction of 
Ship Island lighthouse which was originally built in 1853, 
destroyed in 1861 during the Civil War, and rebuilt in 1886 and 
accidentally burned in 1972. We rebuilt the lighthouse on 
October 9, 1998. A model that I have in front of me is of that 
lighthouse. It is nearing completion as we speak.
    Now, to the island itself. The beauty and history of Cat 
Island is augmented by the inexpensive accessibility to sports 
fishing by fishermen who do not need costly boats to enjoy 
these waters. Families have access to gigging flounders at 
night or wade fishing along the sandy beaches with only a pole 
and a line. My grandsons fish off of Cat Island as did their 
great, great, great grandfather. Cat Island is a profound part 
of our lives, the lives of many people who live along the Gulf 
Coast of Mississippi. Just last month, as we read in the record 
a while ago, our own Congressmen Gene Taylor and his daughter 
Emily landed a monster redfish employing a hand-over-hand line, 
much like the Old Man and the Sea, and he presented to his 
family a delicious meal. That is common among the people who 
live on the Gulf Coast.
    Today's appearance is ``deja vous'' for me. Under the able 
leadership of M. James Stevens, a New Jersey native who 
migrated to the Mississippi Gulf Coast and became our most 
beloved historian and civil leader, H.R. 10874 was introduced 
May 5, 1969. Sponsors of that bill included Congressman Sikes 
of Florida, Congressman Dickinson of Alabama, Congressman 
Hebert of Louisiana and Congressman William Colmer of 
Mississippi. Congressman Colmer at the time was chairman of the 
House Rules Committee.
    H.R. 10874 created the Gulf Islands National Seashore to 
preserve one of America's most historic and scenic chain of 
barrier islands.
    Included in the original bill was Mississippi's Petit Bois 
Island, Ship Island, Horn Island, and Cat Island. My good 
friend and the owner of Cat Island, the late Nathan Boddie, and 
his family did not want to sell Cat Island at that time. Mr. 
Bill Colmer in his infinite wisdom did not want to invoke 
eminent domain. I remember the stately chairman putting his 
hand on my shoulders here in Washington and saying, ``George, 
Nathan does not want to sell Cat Island and I feel we should 
accommodate him and take Cat Island out of the bill. At a later 
date perhaps we can purchase Cat Island, but condemnation 
simply is not an alternative I can live with.''
    Naturally, I agreed with Mr. Colmer, and H.R. 10874 passed 
the 91st Congress on January 8, 1971. Mr. Calmer's prophesy 
that one day Cat Island could be purchased is the subject of 
today's hearing. The Friends of the Gulf Islands National 
Seashore are grateful to Mr. George Boddie, to his sisters, and 
to all members of the Boddie family for their concurrence of 
the preservation of this national landmark.
    By way of a little additional history, in 1513 Spanish 
explorer claimed the area of Cat Island 94 years before 
Jamestown and 110 years before the Mayflower landed at Plymouth 
Rock.
    Three hundred years ago this year, on February 10, 1699, 
the French established a beachhead on the island and sailed 
through the pass between Cat Island and Ship Island and built 
Fort Maurepas on the mainland in Ocean Springs.
    President Thomas Jefferson declared the control of New 
Orleans the focal point to the western expansion of our young 
Nation in 1801. New Orleans controlled the Mississippi River 
which drains 41 percent of the continental United States, 
including all or part of 31 States from New York to North 
Carolina and Idaho to New Mexico. This territory located just 
west of Cat Island prompted the Louisiana Purchase, America's 
greatest real estate transaction at 4 cents an acre, tripling 
the size of the United States in 1803.
    The islands in question at today's hearing were pivotal in 
the Battle of New Orleans won by Andrew Jackson in 1815. The 
Treaty of Ghent on Christmas Eve, December 24, 1814, ended the 
war of 1812, but the terms of the armistice claimed the British 
did not recognize the Louisiana Purchase and therefore the 
coastal land and islands from Pensacola to Baton Rouge remained 
British. Andy Jackson's decisive defeat of the British at 
Mobile, Pensacola and finally at New Orleans on January 8, 
1815, 2 weeks after the war was officially over, drove the 
British out of America once and for all.
    Admiral David G. Farragut used the Gulf Islands as his 
launch spot for the siege of New Orleans, Baton Rouge and 
Natchez. The USS Constitution, among other transport vessels, 
deposited 18,000 troops on the islands in the midst of the 
Civil War. Those were the troops that General Benjamin Butler 
of Massachusetts used to occupy the City of New Orleans.
    Admiral Farragut again used the islands to stage the Battle 
of Mobile against Admiral Franklin Buchanan, First 
Superintendent of the U.S. Naval Academy and former Commander 
of the C.S.A. Merimac-Virginia. In that battle, Farragut 
climbed the mainsail to view the fight and coined the phrase, 
``Damn the torpedoes, full speed ahead.''
    Others before you in these hallowed halls have preserved 
pieces of American history dating back to Francis Scott Key, 
Betsy Ross, Patrick Henry, and Nathan Hale. Today you have the 
opportunity to do the same by preserving another vital piece of 
American history where Andrew Jackson, David Farragut, and 
Zachary Taylor made their marks.
    Today's testimony is not only about buying an island, it is 
also about preserving a piece of American history.
    Thank you.
    Mr. Hansen. I thank the gentleman.
    [The prepared statement of Mr. Schloegel follows:]

        Statement of George A. Schloegel, Gulfport, Mississippi

    My name is George Schloegel. I am a 43 year employee of 
Hancock Bank located at 2510 14th Street, Gulfport, Mississippi 
39501. My telephone number is (228) 868-4706. My degree is from 
Louisiana State University in New Orleans in Business 
Administration with a minor in History. I represent the Friends 
of the Guf Islands National Seashore, a broad based, volunteer 
non-profit organization dedicated to the preservation, 
enhancement and operation of the barrier islands owned by the 
Federal Government located in the Mississippi Sound and Gulf of 
Mexico and visited by 4 1/2 million people annually.
    My experience with the Islands goes back several 
generations. My father, Joseph A. Schloegel, Sr., personally 
led the effort to keep Fort Massachusetts from being destroyed 
by the encroaching sea in the early 1930's. I was a part of the 
effort, from 1965 to 1971, to have the Islands transferred from 
private to public ownership. I am a co-founder and Chairman 
Emeritus of the Friends of the Gulf Island National Seashore. I 
serve as Chairman of the reconstruction of the Ship Island 
Lighthouse originally built in 1853, destroyed in 1861 during 
the Civil War, rebuilt in 1886, accidently burned in 1972 and 
rebuilt beginning on October 9, 1998.
    The beauty of Cat Island is also augmented by inexpensive 
accessibility to sports fishing. Fishermen do not need costly 
boats to enjoy these waters. Families have access to gigging 
flounders at night or wade fishing along the sandy beaches with 
only a pole and line. My grandsons fish off of Cat Island as 
did their great, great, great grandfather. Cat Island is a 
profound part of our lives. Just last month our own 
Congressman, Gene Taylor, and his daughter, Emily, landed a 
monster redfish employing a hand-over-hand line, much like The 
Old Man and the Sea, and presented a delicious meal to their 
entire family.
    Today's appearance is ``deja vous'' for me. Under the able 
leadership of M. James Stevens, a New Jersey native who 
migrated to the Mississippi Gulf Coast and became our most 
beloved historian and civic leader, H.R. 10874 was introduced 
May 5, 1969. Sponsors of that bill included Congressman Sikes 
of Florida, Congressman Dickinson of Alabama, Congressman 
Hebert of Louisiana and Congressman William Colmer of 
Mississippi, Chairman of the House Rules Committee.
    H.R. 10874 created the Gulf Islands National Seashore to 
preserve one of America's most historic and scenic chains of 
barrier islands.
    Included in the original bill was Mississippi's Petit Bois 
Island, Ship Island, Horn Island, and Cat Island. My good 
friend and owner of Cat Island, the late Nathan Boddie and his 
family, did not want to sell Cat Island at the time and Mr. 
Bill Colmer in his infinite wisdom did not want to invoke 
eminent domain. I remember the stately chairman putting his 
hand on my shoulder and saying, ``George, Nathan does not want 
to sell Cat Island and I feel we should accommodate him and 
take Cat Island out of the bill. At a later date perhaps we can 
purchase Cat Island but condemnation is simply not an 
alternative I can live with.''
    Naturally, I agreed with Mr. Colmer and H.R. 10874 passed 
the 91st Congress on January 8, 1971. Mr. Colmer's prophecy 
that one day Cat Island could be purchased is the subject of 
today's hearing, and the Friends of the Gulf Islands National 
Seashore are grateful to Mr. George Boddie and the members of 
the Boddie family for their concurrence in the preservation of 
this national landmark.
    In 1513, Spanish Explorers claimed the area 94 years before 
Jamestown and 107 years before the Mayflower landed at Plymouth 
Rock.
    Three hundred years ago this year, on February 10, 1699, 
the French established a beachhead on the islands when they 
sailed through the pass between Cat Island and Ship Island and 
built Fort Maurepas on the mainland in Ocean Springs.
    President Thomas Jefferson declared the control of New 
Orleans as the focal point to the western expansion of our 
young nation in 1801. New Orleans controlled the Mississippi 
River which drains 41 percent of the continental United States, 
including all or part of 31 states from New York to North 
Carolina and from Idaho to New Mexico. This territory located 
just west of Cat Island prompted the Louisiana Purchase, 
America's greatest real estate transaction at 4 cents per acre, 
tripling the size of the United States in 1803.
    The islands in question at today's meeting were pivotal in 
the Battle of New Orleans won by General Andrew Jackson in 
1815. The treaty of Ghent on Christmas Eve, December 24, 1814, 
ended the War of 1812 but the terms of the armistice claimed 
the British did not recognize the Louisiana Purchase; 
therefore, the coastal land and islands from Pensacola to Baton 
Rouge remained British. Andy Jackson's decisive defeat of the 
British at Mobile, Pensacola and finally at New Orleans on 
January 8, 1815, two weeks after the war was over, drove the 
British out of America once and for all.
    Admiral David G. Farragut used the Gulf Islands as his 
launch spot for the Seige of New Orleans, Baton Rouge and 
Natchez. The U.S.S. Constitution, among other transport 
vessels, deposited 18,000 troops on the Islands in the midst of 
the Civil War. These were the troops General Benjamin Butler of 
Massachusetts used to occupy the city of New Orleans.
    Admiral Farragut again used Ship Island to stage the Battle 
of Mobile against Admiral Franklin Buchanan, First 
Superintendent of the U.S. Naval Academy and former Commander 
of the C.S.A. Merrimac-Virginia. In that battle, Farragut 
climbed the mainsail to view the fight and coined the phrase, 
``Damn the torpedoes, full speed ahead.''
    Others before you in these hallowed halls have preserved 
pieces of American history dating back to Frances Scott Key, 
Betsy Ross, Patrick Henry and Nathan Hale. Today you have the 
chance to do the same by preserving another vital piece of 
American history where Andrew Jackson, David Farragut and 
Zachary Taylor made their marks.
    Today's testimony is not only about buying an island, it is 
also about preserving a piece of American history.
    Thank you for allowing me to make this presentation.

    Mr. Hansen. The gentleman from Nevada, a question for our 
witnesses?
    Mr. Gibbons. Thank you, Mr. Chairman.
    Let me address my first question to Ms. Colbert, if I may.
    Welcome and thank you for your testimony. I know your 
family is in support of this acquisition. What is the will, if 
you might say that, of the other landholders on the island? 
What do they see with all of this?
    Ms. Boddie-Colbert. I don't speak formally for them, but 
there are approximately 27 quarter acre lots that my father 
sold in the 1960s and early 1970s. Those are probably owned by, 
I would think, 10 to 12 different persons, because several 
people owned more than one lot. We have not talked to each of 
them.
    I think that the overwhelming sentiment is that they would 
like to be outside the seashore, if for no other reason so they 
could drink a Coors longneck on the porch of their house. The 
seashore, for very good reasons, prevents any glass on the 
island's seashore, and that is obviously necessary. But I think 
these people would like to have a little less regulation and be 
able to go into their camps and continue life as usual.
    Mr. Gibbons. So they want to continue their private 
property ownership on the island while still permitting the 
public ownership of the majority of the island that you plan--
--
    Ms. Boddie-Colbert. We own all but six acres of the island. 
I don't know that other landowners really have a say as to 
whether--into our decision to sell to the Park Service. But it 
is my understanding and it has been my understanding that the 
land that we kept and also the existing privately owned lots 
would not be included within the boundaries of the seashore. 
They would simply be outside the seashore, not in hold.
    Mr. Gibbons. Mr. Shaddox, what is the projected cost of the 
island?
    Mr. Shaddox. We have no estimates at this time. We are 
conducting an appraisal, but we don't know what the costs are 
going to be at this time.
    Mr. Gibbons. Would you be willing to submit for the record 
your determination of the appraisal value prior to the 
acquisition?
    Mr. Shaddox. We would be willing to do that after we share 
it with the landowner, yes.
    Mr. Gibbons. With an included boundary of your suggestion 
for the barrier, the boundary around this island to be included 
as part of the title, would there be any restrictions on the 
access to this island generated by your service for these 
private property inholders?
    Mr. Shaddox. If I may, Representative Gibbons, ask the 
chairman if I could please call Jerry Eubanks, the 
Superintendent of Gulf Islands, to the table and Dan Brown, 
Deputy Regional Director of Atlanta, to help answer some of 
these questions. They are infinitely more familiar with the 
island and its regulations than I am.
    Mr. Hansen. The gentleman from Colorado, Mr. Udall.
    Mr. Gibbons. I noticed that it was still green, Mr. 
Chairman. When it turns red, I would stop. I have acceded to 
your wishes.
    Mr. Hansen. The floor is still yours.
    Mr. Taylor. Mr. Gibbons, I believe that I can help answer 
that question.
    Mr. Hansen. You can answer from there.
    Mr. Taylor. I want to show you. I think it is easier. It is 
my understanding that the track of lands the family and the 
other property owners would like to retain is right up around 
here.
    Mr. Gibbons. Yes, I have seen the map in the back. I have 
heard testimony.
    Mr. Taylor. So, as you can clearly see, that land would 
continue to be accessible by water.
    Mr. Gibbons. But the land behind it, which is the other 10 
or 12 property owners, would have also some restrictions, and 
that is the reason why I went to the question.
    Ms. Boddie-Colbert. Sir, do you want me to respond?
    Mr. Gibbons. Sure.
    Ms. Boddie-Colbert. Those privately owned lots are on the 
northern channels that are shown on the map. So they would 
have--they should have waterfront access right to their lot.
    Mr. Gibbons. That would be my question back to the Park 
Service, Ms. Colbert. That is why I wanted to ask the Park 
Service that question. Because if they include a greater 
boundary around the island as their territory, then they would 
end up controlling and making the decisions about access over 
the property for you.
    Ms. Boddie-Colbert. That is a subject of great concern to 
my family.
    Mr. Gibbons. Mr. Chairman, if one of the gentlemen that 
have come to the table could provide an answer, I notice my 
questioning time has lapsed.
    Mr. Hansen. The gentleman from Nevada, I apologize for not 
paying attention. Do you want additional time to pursue this 
line of questioning?
    Mr. Gibbons. I would ask one of the gentlemen, if they 
understood my question, if they could respond to it.
    Mr. Eubanks. The private property is on the canal that 
comes on there, so there would be access.
    Mr. Gibbons. I guess my question is, if you include the 
boundary around there extending out into the submerged lands as 
included as part of the acquisition description, then do you 
have the ability to control access? Would that exclude access 
for these individuals or the public?
    Mr. Eubanks. No, sir, not in my opinion, it would not.
    Mr. Gibbons. Thank you, Mr. Chairman.
    Mr. Hansen. The gentleman from Colorado, Mr. Udall.
    Mr. Mark Udall. Thank you, Mr. Chairman. I would be happy 
to yield to my colleague from Nevada if he had additional 
questions----
    Mr. Gibbons. I do, but you are certainly welcome to take up 
your own time.
    Mr. Mark Udall. Let me ask one or two questions. I don't 
think they will take very long.
    I am interested in clarifying the record as well. I am 
looking at this plat here. It looks like there are 18 lots 
along a certain access and the there is some more on this point 
here. Your family still owns some of those lots. Some of them 
are owned privately. You used the word ``camp.'' It also sounds 
like in large part, that these are fairly primitive places 
where people come to spend the weekend to fish.
    Ms. Boddie-Colbert. There are three buildings currently on 
these lots. The latest one, my brother's, for use of a better 
word, is certainly not primitive. It is modelled on the replica 
of the Horn Island lighthouse, which was built in the early 
part of this century. It is cypress. It is beautifully 
constructed. I would love for you to come out and see it.
    The other two buildings out there are probably more 
correctly described as fishing camps, but I can tell you that 
one of them was built prior to Camille and went through the eye 
of Camille without any major damage. So there has been a--it is 
possible to build out there to withstand the forces of nature. 
It is a beautiful place.
    Mr. Mark Udall. If I could get permission, if your 
Congressman would invite me out there, I would love to have a 
chance to visit. You have to understand a lot of us on this 
Committee are from the mountain West. We sometimes have to take 
a little adjustment to the seashore. But it sounds like a 
phenomenal resource. He has invited me for the weekend.
    So you feel confident that--I think my colleague from 
Nevada is concerned about access regulation. I think I am 
concerned about the private property owners who are there 
getting crosswise with the management policies of the Park 
Service and the general public perhaps having their experience 
impacted by private landowners who have a different point of 
view. But I hear you saying you think the two are compatible 
and you have examples of this and the other islands in this 
seashore area.
    Ms. Boddie-Colbert. Well, now, I can't speak for the other 
lot owners. There are only currently two houses on the island 
that are not under my family's control. The development that we 
have negotiated with the Park Service would allow the members 
of our family to build houses on the land that we retain and to 
put in the small ecologically oriented lodge. We certainly 
expect to be good neighbors with the Park Service. We don't 
have any desire to, I think, undertake any activities that 
would disturb the beauty of the place. We want to enjoy it and 
keep it like it is, if possible.
    Mr. Mark Udall. That is clear from the way that you have 
managed it for 100 years, it sounds like. Do you expect other 
private landowners would expand and develop their parcels over 
time or do you think that it would probably only be a few more 
dwellings and your ecolodge that you are talking about?
    Ms. Boddie-Colbert. I think there could be only a few more 
dwellings. The possibility of additional dwellings would be 
limited to maybe four on those existing lots. I don't think 
there could ever be any significant development out there.
    Mr. Mark Udall. I would be happy to yield whatever time I 
have left to my colleague from Nevada.
    Mr. Gibbons. Thank you, Mr. Udall. I appreciate that.
    I would presume your purpose would be to have a commercial 
ecotourism base on that island?
    Ms. Boddie-Colbert. We think that it would be something 
that we would enjoy doing.
    Mr. Gibbons. The purpose, is that commercial or it would be 
a private, not-for-profit operation?
    Ms. Boddie-Colbert. I don't think that we could do it if it 
were not for profit. It would be a commercial operation, but I 
think it would be a very small-scale, limited operation.
    Mr. Gibbons. Mr. Shaddox, is that within the park's purview 
to acquire public land for the use of commercial operations 
within it?
    Mr. Shaddox. Normally when we buy lands inside the parks or 
if the park is established and has private lands inside the 
park, we respect those private individuals' rights to do with 
their land what they will. In this case, it doesn't appear that 
there is going to be any inflection against the park. At this 
time, the Boddie's plans are very straightforward, and we 
wouldn't have that much difficulty with it. Our concern is more 
what happens in the future with lands that are not in that 
ownership.
    Mr. Gibbons. Mr. Chairman, may I just take an additional 
moment here to follow up that question? Because what I am 
hearing from the owner of the property today is they want to 
establish a permanent commercial ecotourism operation on the 
island. But then again, if you are a private individual wanting 
to visit the island, I am not sure whether the park is going to 
provide public access to the island outside of this commercial 
operation that is proposed. I would wonder if that was the 
intent of the Park Service and if they could answer that to 
provide access to the island that would be private without 
having to go through the public commercial operation that Ms. 
Colbert is offering.
    Mr. Shaddox. If I could defer to the superintendent on that 
to find out what his plans are.
    Mr. Eubanks. Mr. Chairman, if I understand the question 
correctly, the private owned property would be accessible 
without having to come through the park because of those 
canals. It would through the other rough boundary----
    Mr. Gibbons. That would be true for those accessing private 
property unless they made a private access easement across 
their private property. So if there is that intent for the Park 
Service to create a landing facility, public visitors center 
access to the land, that would be my question to you. Because 
it seems to me it would be very restrictive to have a 
commercial operation which said you can only come to my island 
and tour it if you go to our commercial, paid for for-profit 
tourism.
    Mr. Eubanks. No, sir. I would visualize this being just 
like the others. People are free to go their in their private 
boats, and this one is much closer to the other islands and is 
much more accessible by privately owned boats. The only island 
that we have public access to by concession boat is West Ship 
Island that was referred to earlier. At this point, I don't 
know that we would have any plans for that. That hasn't been 
determined yet, but I would visualize it.
    Mr. Taylor. Mr. Gibbons, the cove that would be on the 
bottom left-hand side is on the Spit Cove, as it is commonly 
referred to locally Smuggler's Cove, because the rum runners 
used it during Prohibition as a stopping-off station as they 
were bringing liquor up from Cuba and other places.
    I have been there. This is a privately owned island, almost 
all of which is owned by the Boddie family. I have been there 
when over 100 boats were in that cove right now. If the 
question is somehow slanted that would this prohibit the public 
from using the island if the family retained a small portion, 
absolutely not. The family has been incredibly generous to 
allow on a regular basis folks to just show up and dock off 
their island.
    Mr. Gibbons. That was not my intent, to say that the family 
has not been generous with their current access. But the 
problem comes is when the Park Service takes over control of 
the majority of the island, they begin to have the ability to 
restrict use and activities. We see it all in the west a lot of 
times where day use or day visitor use gets down to numbers. 
Where they say in a certain area there is too many people 
coming here so we are going to restrict it to ``X'' thousand 
days of use per year and each individual counts for one of 
those day use.
    Mr. Taylor. Mr. Gibbons, to that point, as I mentioned 
before and it may have been before you entered the room, the 
Park Service presently has several islands over in the Gulf 
Coast. One of them is called Horn Island where they allow 
primitive camping right now. Anyone can go there for a day trip 
in unlimited numbers and anyone can camp on the island in 
unlimited numbers.
    They have another island called Ship Island, which has a 
commercial operation that you can pay to go out to the island 
or you can take your own boat out to the island. In parts of 
Ship Island there is unlimited camping. On parts of the island 
where the fort that Mr. Schloegel described, in order to 
prevent vandalism to the fort they limited camping on that 
portion of the island mostly to prevent vandalism to the fort 
that has occurred in the past and the lighthouse that Mr. 
Schloegel and his group have worked so hard to restore.
    Mr. Gibbons. I am sure Mr. Taylor is quite aware of 
Stiltsville in Florida where it was privately constructed 
residences in this bay. When it was turned over to the Park 
Service for a protected status it then became the objective of 
the Park Service to remove the private ownership and the owners 
out there in that bay. What worries me is when we do this, we 
are going to end up at some point down the road developing 
restrictions on these private owners at that point.
    Mr. Taylor. Again, Mr. Gibbons, on that point, I appreciate 
you asking this question, and I can assure that the property 
owners appreciate you asking this question. One of the things 
that we hope to make abundantly clear today, so they don't have 
to keep coming back to Washington and explaining their 
position, is that they would like to retain fee simple title to 
what they retain, which means they can do what they want and 
the Park Service cannot interfere.
    Mr. Hansen. Let's move along. If you need another round, we 
would be happy to.
    The gentleman from Pennsylvania, Mr. Sherwood.
    The gentleman from Mississippi, do you have anything that 
you would like to----
    Mr. Taylor. Again, I would like to thank our panelists for 
coming. I know it is a fairly expensive trip up from 
Mississippi and other parts of the country.
    Mr. Schloegel very modestly did not mention that he is not 
only the employee of Hancock Bank but he is the president of 
the Hancock Bank, which is the largest banking institution in 
the State of Mississippi. Again, I am really pleased to see all 
of you here, but in particular I think Mr. Schloegel not only 
brings, as he mentioned, the concern of his family over decades 
for the Gulf Islands, but I think he also speaks for the 
business community of south Mississippi when he says this would 
be a good thing for South Mississippi and for our Nation. That 
is all. I thank you all for being here.
    Mr. Hansen. Thank you.
    Ms. Colbert, let me get this in perspective, could I? 
Apparently your family has owned it for many years; is that 
right?
    Ms. Boddie-Colbert. Since 1911.
    Mr. Hansen. Your father was the titleholder with the 
family?
    Ms. Boddie-Colbert. My father and his sister inherited it 
from their grandmother, I think, in 1935. They each owned a 
half interest in it.
    Mr. Hansen. Now, they are the heirs to your father who I 
assume has passed away?
    Ms. Boddie-Colbert. My father died in 1985. My aunt, who is 
still alive, has given all of her interest in the island to my 
siblings and our children and her daughter.
    Mr. Hansen. So you are all co-owners.
    Ms. Boddie-Colbert. Yes.
    Mr. Hansen. Has it been divided up?
    Ms. Boddie-Colbert. No.
    Mr. Hansen. Like you have a piece and your children have a 
piece?
    Ms. Boddie-Colbert. No, we own it indivisible.
    Mr. Hansen. You are the ones that would be negotiating with 
the Park Service to determine if you want to sell this property 
to the Park Service or some other entity; is that right?
    Ms. Boddie-Colbert. The Park Service approached my brother 
in May of 1998. I think he agreed to take Mr. Eubanks out to 
the island, and they discussed the possibility that we would 
begin negotiations to consider the possibility of putting Cat 
Island into--a portion of Cat Island into the Gulf Island 
National Seashore.
    Mr. Hansen. And your father divided up--I don't know if we 
got this straight, but there looks like a number of lots in 
here. I think that you previously said quarter acre lots?
    Ms. Boddie-Colbert. Yes, sir.
    Mr. Hansen. These are owned by private individuals that 
were sold to these individuals from your family or your father 
or whoever?
    Ms. Boddie-Colbert. Yes, sir. Basically my father did that 
in an attempt to establish property values to keep Cat Island 
out of the Gulf Island National Seashore.
    Mr. Hansen. Is there a family dwelling that your family has 
owned somewhere in this area?
    Ms. Boddie-Colbert. My brother has a house that is on 
that--well, on one of the canals.
    Mr. Hansen. But there hasn't been a family dwelling where 
the family live? You don't consider this your residence?
    Ms. Boddie-Colbert. No, we don't live out there. My family 
had a camp that was built on ground level that washed away when 
the eye of Hurricane Camille passed over Cat Island. Until my 
brother built the house a few years ago, we have not had a 
vacation home out there.
    Mr. Hansen. Mr. Gibbons, following what he is saying 
correctly here, there is always a question. I think Mr. Taylor 
raised a question. The Park Service would possibly have to 
evaluate it very carefully to determine what they want, if 
primitive camping or whatever. Do you envision commercial 
property there or retaining some of the property to sell to a 
commercial entity?
    Ms. Boddie-Colbert. No, sir. We are confident that we would 
like to see this preserved for public ownership. It is a very 
beautiful place. It is a special place to my family. We would 
like to see it preserved. We are confident if that can't be 
done that it could be developed in a low density residential 
development, somewhat like Dewees Island in South Carolina. 
That is not the preferable alternative, but if we are not able 
to come to terms with the Park Service, that would be our 
preferred second course. It is not our desire but I think a 
viable alternative.
    What we have negotiated with the Park Service would allow 
us to keep approximately 150 acres outside the boundaries of 
the seashore, is our understanding of the negotiations, so that 
family land would not be subject to directed regulation by the 
Park Service because it would not be within the boundaries of 
the park. We have agreed that we would put substantial 
development restrictions on that parcel.
    Basically what we asked them for was we wanted the right to 
build houses. It is 11 dwelling units, one for each, my 
brother, sister, me, my cousin and our children. And we wanted 
the right--I don't know that we would do this, but we would 
like to retain the right, if we wished, to build an 
ecologically-oriented lodge or inn up to 28 units that would 
simply be a very small-scale, environmentally sensitive 
development that could easily be contained on the part of Cat 
Island that we would retain. We would hope that our people 
could visit the seashore----
    Mr. Hansen. You have cleared it up for me. I was just 
curious what part you were going to keep, what you were going 
to sell, what the Park Service would do with it.
    The one point that I am sure this Committee would like to 
know and I don't think they will for a while is what kind of 
money we are looking at between these two entities. That is 
always a problem. We have to authorize it. If we authorize 
this, then after you folks come up with agreement, which would 
be kind of nice to know before we authorize it, then we have to 
turn it over to Ralph Regula who does the appropriating. 
Everything has to be authorized because this is an authorizing 
Committee and they are an appropriating committee. They cannot 
legislate; we can't appropriate. We have each other between a 
rock and a hard spot, so we have to work together.
    So I guess the last thing in my mind that hasn't been 
resolved is the most important thing called money. Maybe, Mr. 
Taylor, we will just kind of move ahead slowly and see if this 
is resolved some way so that we now what we are looking at. Do 
you want to comment on that?
    Mr. Taylor. If I may, sir. As you know, in Mississippi we 
have the great distinction, great privilege of having not only 
the Senate majority leader but also the second to senior most 
member of the Senate Appropriations Committee----
    Mr. Hansen. That is very helpful.
    Mr. Taylor. [continuing] Senator Cochran. He has either 
already included language in an Interior appropriations asking 
that the Interior Department work with the Park Service to 
acquire this land with existing funds or he has stated his 
intention to do so. That is why I am a little fuzzy. That is a 
public statement coming from the Senator's office. And so I 
feel very good with the really across-the-board support on this 
all of the way from the environmental groups, commercial 
fishermen and recreational fishermen, the business community 
with the across-the-board support for this project. And with 
the help of those two incredibly influential Senators that this 
would happen and I would hope this Committee would help us 
expedite it on our side of the Capitol.
    Mr. Hansen. I appreciate your comment.
    I am working with the appropriators now on what I am going 
to strike a point of order on. As you know, if they legislate 
on appropriation bill, all we have to do is make a point of 
order and it goes down the tubes. Both houses have to work this 
thing out, regardless of the clout that they have got which we, 
of course, appreciate.
    I don't want to be an obstacle. I would hope that it could 
come to pass. But still, on the other hand, those of us from 
the West are a little sensitive. We notice those from the South 
and the East have a way of skipping over NEPA and EIS and EIA 
and all of those things. Those of us in the West always get 
hammered. So we are paranoid, if I may respectfully say so.
    Mr. Taylor. Again, to the point, I think the real key here 
is trying to look at it from your shoes, if I may, is we are 
talking with willing sellers.
    The family approached me this summer. For years as I have 
visited this island I have dreamed that one day we would get 
this opportunity. Because I never would approach them because, 
quite frankly, it is their island. It has been their island for 
almost a 100 years. I would never do anything to take it from 
them, whether we compensated them or not.
    It is the wishes of the Boddie family to try to preserve 
it. I hope that I am not going to betray their trust, but it is 
worth saying when I recount the conversation with one of the 
family members and they had mentioned the different groups that 
had approached them to purchase the island, and it really 
caught my attention. At one point one of the family members 
said, you know, after looking at some of the proposals of what 
they would do to the island, we didn't know whether to laugh or 
cry.
    They are trying to preserve it. They are willing sellers, 
and I would sure hope that this Committee would honor their 
wishes. And I certainly understand where you are coming from, 
but I know it to be in the best interests of Mississippi and 
our Nation.
    Mr. Hansen. I appreciate the gentleman's comments. We sure 
don't want to be detrimental to what probably is a pretty good 
idea, just certain hoops that we have to go through around 
here.
    With that said, anybody have any further questions they 
want to bring up? If not, we will excuse this panel and thank 
you for your testimony.
    Our remaining panel is Juliette Falkner, Director, Office 
of Regulatory Affairs, Department of the Interior; Fred Bieti, 
Isle Royale Boaters Association; Jim Matson, President, 
Vermillion Services; and Bob Monahan, Chairman of the Monahan 
Group.
    As you can see by looking behind you, two more lights are 
on. Let's just find out what we have got.
    We have one more vote to do, final passage on something. So 
if you don't mind, I apologize to all of you, we will be right 
back. We will stand in recess.
    [Recess.]
    Mr. Hansen. The Committee will come to order.
    We hope that we have about an hour. We have a rule coming 
up; and, hopefully, everyone will talk for the full hour so 
that we can hear this testimony, which is very important, in my 
mind.

 STATEMENT OF JULIETTE FALKNER, DIRECTOR, OFFICE OF REGULATORY 
                AFFAIRS, DEPARTMENT OF INTERIOR

    Mr. Hansen. Juliette Falkner, Director, Office of 
Regulatory Affairs, Department of the Interior. You are on.
    Ms. Falkner. Thank you, Mr. Chairman. I have statements for 
both H.R. 1864 and H.R. 1866, and I can read both of them at 
this time if you would prefer.
    The Department believes that it is unnecessary to establish 
standard requirements for conducting public hearings on its 
various actions as provided for in H.R. 1864. The Department's 
public hearing procedures are guided by requirements under the 
Administrative Procedure Act, NEPA, the Federal Advisory 
Committee Act, and other statutes.
    In addition, all of the Department's agencies must comply 
with chapter 455 of the departmental manual which describes 
procedures for public hearings. This chapter includes 
guidelines and noticing the meeting in the Federal Register, 
methods for receiving public comments, time frames and 
procedures for witness testimony.
    A significant percentage of the Department's public 
hearings occur in the context of informal remaking under the 
APA and are used as part of the process for obtaining public 
comment on proposed rules. Under the APA, the determination of 
how the final rule will appear must be based on a rule-making 
record developed over the course of an entire comment period. 
However, requirements in H.R. 1864 that would ensure that the 
public have a reasonable expectation of meaningful and timely 
answers to questions posed at public hearings could conflict 
with the APA. It is not appropriate to answer questions which 
in any way appear to prejudge the outcome of the rule-making 
process prior to consideration of all timely submitted 
comments.
    Requiring the Department to ensure that the public have a 
reasonable expectation of meaningful and timely answers to 
questions posed at public hearings, there is a strong 
possibility that opponents to the action could use that 
requirement to make the bureau spend time and money by asking 
questions that are irrelevant to the subject being heard, 
require a great deal of research or for any other reason could 
not be answered close to the time they were asked.
    In addition, H.R. 1864 provides no guidance on what, if 
any, rights an individual has to litigate these issues. If H.R. 
1864 permits such litigation, the Department's ability to 
finalize its decision in a timely manner would be compromised. 
As a general rule, our bureau has tried to answer relevant 
questions asked by the public at hearings. Our concern is about 
the potential unforeseen consequences of mandating that any 
questions asked at a public hearing be answered.
    In closing, findings of H.R. 1864 suggests that a lack of 
standard procedures for conducting public hearings by Federal 
agencies is a government-wide problem, yet the requirements of 
the bill apply only to the Department of the Interior. If the 
intent of this legislation is to establish a framework to 
standardize the procedures for hearings throughout the 
executive branch, other Federal agencies should be included in 
the bill's requirements and have the opportunity to comment. 
If, however, this legislation was prompted by specific concerns 
in the way the Interior bureaus are conducting public hearings, 
we would welcome the opportunity to work with you to identify 
and resolve such problems.
    [The prepared statement of Ms. Falkner follows:]

     Statement of Juliette Falkner, Director, Office of Executive 
     Secretariat and Regulatory Affairs, Department of the Interior

    Mr. Chairman, thank you for the opportunity to testify on 
H.R. 1864, to standardize the process for conducting public 
hearings for Federal bureaus within the Department of the 
Interior.
    The Department does not support H.R. 1864. We believe that 
the bill is unnecessary to establish standard requirements for 
conducting public hearings on its bureau's actions, as provided 
for in H.R. 1864. Although it is not clear what the bill would 
require, the result under any interpretation would be increased 
bureaucracy and costs to taxpayers, delays in decisions 
impacting the public, and probable increases in litigation. 
There is a very real risk of unintended consequences from such 
broad legislation.
    The findings of H.R. 1864 suggest that a lack of standard 
procedures for conducting public hearings by Federal agencies 
is a government-wide problem. Yet the requirements of the bill 
apply only to the Department of the Interior. If the intent of 
this legislation is to establish a framework to standardize the 
procedure for hearings throughout the executive branch, other 
Federal agencies should be included in the bill's requirements, 
and should have the opportunity to comment. If, however, this 
legislation was prompted by specific concerns in the way 
Interior bureaus are conducting public hearings, we would 
welcome the opportunity to work with you to identify and 
resolve such problems.
    H.R. 1864 would increase the costs to the taxpayers of 
making decisions on matters on which we hold public hearings. 
The additional costs would result largely from the requirement 
in Section 3(b)(4) that the hearing process ``ensure that the 
public shall have a reasonable expectation of meaningful and 
timely answers to questions posed at public hearings.'' We 
think there is a strong possibility that opponents of an action 
could use that requirement to make bureaus spend time and money 
by asking questions that are irrelevant to the subject being 
heard, or that require a great deal of research, or that for 
any other reason cannot be answered close to the time they are 
asked.
    The Department holds numerous public hearings to solicit 
public comments. Most of these hearings were held in the 
context of a rulemaking or National Environmental Policy Act 
(NEPA) decision. In addition to public hearings, the Department 
solicits public comments by utilizing the Internet, town hall 
meetings and surveys. H.R. 1864 would duplicate many of these 
existing requirements and guidelines. We believe that the 
processes we have at the present time for soliciting public 
comment work well.
    The Department's public hearing processes are guided by 
requirements under the Administrative Procedure Act (APA), 
NEPA, the Federal Advisory Committee Act, and other statutes. 
In addition, all of the Department's agencies must comply with 
Chapter 455 of the Departmental Manual, which describes 
procedures for public hearings. This Chapter includes 
guidelines on noticing the meeting in the Federal Register at 
least 30 days prior to the meeting, methods for receiving 
public comments, timeframes and procedures for witness 
testimony.
    A significant percentage of the Department's public 
hearings occur in the context of informal rulemaking under the 
APA, and are used as part of the process of obtaining public 
comment on proposed rules. Under the APA, the determination of 
how the final rule will appear must be based on the rulemaking 
record developed over the course of the entire comment period. 
The requirement to ensure that the public shall have a 
reasonable expectation of meaningful and timely answers to 
questions posed at public hearings could conflict with the APA, 
as it is not appropriate to answer questions posed at a public 
hearing that focus on decisions which in any way appear to pre-
judge the outcome of the rulemaking process prior to receipt 
and consideration of all timely submitted comments.
    The requirement for timely and meaningful responses could 
also pose other problems, in addition to increased costs and 
the potential conflict with the APA. H.R. 1864 provides no 
guidance and is silent on an individual's right to litigate 
these issues. For example, does someone who thinks he is not 
receiving a ``timely'' or ``meaningful'' response have the 
right to sue a bureau? Could someone sue for lack of a timely 
or meaningful response even if the question asked was 
irrelevant to the subject of the hearing? If so, such 
litigation could cause significant delays in the Department's 
ability to finalize its decisions--and, of course, result in 
greater costs to the taxpayers.
    As a general rule, our bureaus try to answer relevant 
questions asked by the public at hearings, if the question can 
be answered. Our concern is about the potential unforeseen 
consequences of mandating that any questions asked at a public 
hearing be answered.
    For all of these reasons, the Department does not support 
H.R. 1864. However, to repeat what I said at the beginning of 
my remarks, we would be pleased to work with the Subcommittee 
to identify and resolve any specific concerns you have about 
our existing hearing processes.
    Mr. Chairman, that concludes my remarks. I will be pleased 
to answer any questions you or other members of the 
Subcommittee may have.

    Mr. Hansen. Do you want to comment on the other bill?
    Ms. Falkner. Thank you.
    The Department also does not support enactment of H.R. 
1866. The result of this bill would be increased bureaucracy, 
cost to the taxpayers, delays in decisions impacting the 
public, and probable increases in litigation. Section 3 of H.R. 
1866 requires the Secretary to establish an administrative 
appeals process for decisions by the Fish and Wildlife Service 
and the National Park Service made pursuant to NEPA. However, 
the only agency made pursuant to NEPA are whether agency 
actions requiring environmental assessment or environmental 
impact statements are categorically excluded from the 
compliance.
    The only other interpretation of section 3 is that it 
requires an appeals process for decisions that the two agencies 
make involving NEPA clients. This could then open the door to 
appeals of far more than land use decisions and could, for 
example, include appeals regarding the migratory bird hunting 
regulation. Allowing such decisions to be appealed would 
essentially end migratory bird hunting. There is virtually no 
chance that the appeals could be resolved between the time the 
data needed to set the season and bag limits becomes available 
and the end of the hunting season.
    Most importantly, there is a fundamental difference between 
the lands managed by the Bureau of Land Management and Forest 
Service proprietary national parks and national wildlife 
refuges. The BLM and Forest Service plans for multiple use 
lands provide that a variety of valid but competing interests 
may exist. The extension of the appeal process for the 
decisions regarding the management and use of these lands 
impacts the situation.
    In contrast, national parks and national wildlife refuges 
are established to protect the resources found in the parks and 
to conserve our Nation's wildlife resources. No use of a 
national wildlife refuge is permitted unless a written 
determination is made after public comment that the use is 
compatible for the purposes for which the refuge was 
established. Similarly, no activity or use may occur on 
national park lands unless the Park Service determines it is 
consistent with the National Park Service Organic Act which 
requires that park resources be left unimpaired for enjoyment.
    Existing decision-making procedures for land management by 
the Fish and Wildlife Service and the Park Service appear to 
work well and have general acceptance by the public. Both the 
Fish and Wildlife Service and the Park Service have appeals 
procedures. Requiring the duplication of the BLM or Forest 
Service appeals process for the very different land use 
decisions of the Fish and Wildlife Service and the Park Service 
would certainly lead to increased bureaucracy, costs and 
delays. In addition, there is a very real risk of unintended 
consequences.
    We accordingly urge this Subcommittee not to take further 
action on the bill.
    Mr. Hansen. We thank you.
    Mr. Bieti, you are recognized for five minutes.

    STATEMENT OF FRED BIETI, ISLE ROYALE BOATERS ASSOCIATION

    Mr. Bieti. Thank you, Mr. Chairman, for the opportunity to 
come here and discuss H.R. 1864, the hearings process.
    There can be no doubt that you do need a formal hearings 
process. One of the pieces of background information that I 
received was asking what areas this hearing process might 
cover. I would suggest that you should have a hearing whenever 
there is a decision circulating in the agency that, number one, 
would alter or restrict traditional visitor use; two, any 
action that would result in the removal or failure to maintain 
public facilities. You should have a hearing if the removal of 
these existing facilities may adversely affect the ability of 
the disabled to access this park or wilderness.
    The second item was a process where the public can be made 
informed in a timely fashion. There isn't a lot that I can say 
about that except that the public certainly should be informed, 
and there are websites, there is newspapers, there is a number 
of ways to inform the public.
    I would be concerned that the public have an increased 
amount of time, for example, two season cycles, if the decision 
or a plan like a general management plan would be removing 
facilities from a park. I don't think that you should allow the 
removal of facilities for 2 years after a record of decision is 
made. I give thought to the agency cooperating with groups like 
the Isle Royale Boaters Association who disseminate this 
information. A lot of us would be happy to include this 
information on widely read websites. I am sure concessionaires 
would like to pass out information relative to a plan being 
considered. I don't think getting the message out is a problem.
    A third area was the method by which these hearings should 
be conducted. These hearings can be very beneficial to an 
agency or I think they can be rather harmful. These hearings 
should be held in a public forum where the speakers are 
addressing the entire assemblage of public listeners. They 
should not be held in small group sessions where, one, the 
government officials speaking may not necessarily be held up to 
task for his thoughts that might be predisposed nor his 
comments. This divided session group seems to result in small 
groups and the public doesn't have a chance to really bring to 
bear its interest as a group.
    A fourth item that you discussed was a process to ensure 
that the public have a reasonable and timely answer to a 
question. I can tell you that does not occur and without a 
formal hearing process I can see no way for that to occur.
    In addition, they have in this process--I question what it 
is the hearing process is going to yield. If, in fact, the 
public opinion is ignored, as it has been in cases I am 
familiar with, then why have it? But I do think you should have 
the hearing process formalized. Maybe the problems that we saw 
could be taken care of.
    There were newsletters--if I may, let me talk about the 
process to develop a general management plan for Isle Royale 
national park. Your briefing paper said that people come away 
from some of these public comment sessions, one, confused and, 
two, filled with complaints. I would certainly agree. I am 
surprised to hear that the Park Service isn't aware that there 
is some problems going on. I have books that agree.
    Newsletter two came out relative to the Isle Royale plan 
and summarized the public opinion this way. It said, generally 
speaking, we find that the public thinks things are fine just 
the way they are. Questions come up and say why would we spend 
$6 million to develop a new plan when we could stay with the 
plan that we have?
    Newsletter three came up. Another newsletter came out. They 
changed the number of issues from 25 to 18. They had five 
alternative concepts. The response form gave us two issues to 
answer. One was, did we eliminate enough areas or did we 
eliminate just the right number of areas? I am paraphrasing, 
but that is how I felt the answer to be. They didn't give us 
the opportunity to speak to the big picture. If I was doing a 
survey and said, do you like a red Chevrolet or do you like a 
black Chevrolet and the person said, yes, I would like a red 
Chevrolet, that doesn't mean they don't like Fords.
    Newsletter five came out. Incidentally, I would point out 
that when we had discussions prior to newsletter five, the 
public was not allowed to comment or ask questions. The crowd 
actually got a little bit upset and said, we came here to 
learn, we came here to interact. The Park Service said, I am 
sorry, we only booked this room for 30 minutes. The public 
volunteered to get up and move their chairs to adjacent areas 
so they could ask questions.
    At the end of the session, this newsletter five pointed out 
that the public generally preferred the plan that said keep the 
status quo. I will summarize here. They said that in 350 
written comments, alternatives A and B were the most popular. 
The March meetings said, in summary, in the public meetings 
where 300 people attended the meetings, even more people 
expressed support for alternative A.
    So much for the public input. I came to Washington last 
November in what we tried as an appeals process. We met with 
the Deputy Secretary; and the comment was made to us, well, why 
would we spend all of this money on a plan and then decide to 
keep the direction we had before? We have got to change 
something. I kind of feel if it ain't broke, don't fix it.
    Item number five, you are talking about making the hearings 
a part of the official record. I guess I use some language in 
here that was strange to my friend, the attorney sitting behind 
me. He assumed that these things are assumed to be a fact. I 
said, if you have a hearings process or communications, one, do 
it in plain English, and, two, make the people tell the truth. 
If you did those two things, you would have far less confusion, 
far fewer complaints, I would say.
    If I might, I will go on to the appeals section. If you are 
going to run these together, I certainly think that if you 
don't have an appeals process this is all going to stay within 
a black box and none of these public comments have a chance to 
come out.
    Mr. Hansen. We will give you a couple of minutes on that, 
okay?
    Mr. Bieti. On the appeal process?
    Mr. Hansen. These gentlemen are testifying on two bills, so 
we gave them more time than normally.
    Mr. Bieti. I thought it was 5 minutes each.
    Mr. Hansen. We have given you 10 so far. But we will give 
you another two.
    Mr. Bieti. Oh, you have? I'm sorry.
    The type of decision that can be appealed, I would say 
anything that applies to the traditional visitor use of an area 
like a park.
    I am a little confused here. I am an engineer by trade and 
a businessperson, but when you have a Committee meeting like 
this, I am of the opinion that this meeting constitutes some 
degree of import. Back in 1976, the wilderness legislation that 
was written for Isle Royale, and I quote, ``The Senate 
committee understands that no significant expansion of boat 
docks will be made, but the continued maintenance of these 
facilities is essential.''
    Where I come from in the business and engineering world, if 
it is essential, it means that it is essential. That is plain 
English. Yet today's National Park Service interpretation of 
that is, well, it is really an allowance to do whatever we 
really think we need to do to maintain this. An allowance 
versus essential doesn't seem to cut in the area of truth in 
plain English.
    If these bills are passed, I think that you should be able 
to appeal it if you find that these decisions do not even 
follow NPS management guidelines. I have a long list of 
examples of management guidelines that are ignored daily.
    Public use limits require scientific research. Ensure that 
recreational uses are consistent with the authorizing 
legislation. Well, it seems to me that the decisions to 
authorize Isle Royale in 1931 have been redefined along the way 
so that the authorizing legislation is not recognizable.
    I can see the red light. I will stop and answer any 
questions that you might have.
    Mr. Hansen. Thank you, Mr. Bieti. I appreciate your 
comments.
    [The prepared statement of Mr. Bieti follow:]
    [GRAPHIC] [TIFF OMITTED] T4045.022
    
    [GRAPHIC] [TIFF OMITTED] T4045.023
    
    [GRAPHIC] [TIFF OMITTED] T4045.024
    
    [GRAPHIC] [TIFF OMITTED] T4045.025
    
    [GRAPHIC] [TIFF OMITTED] T4045.026
    
    [GRAPHIC] [TIFF OMITTED] T4045.027
    
    [GRAPHIC] [TIFF OMITTED] T4045.028
    
    [GRAPHIC] [TIFF OMITTED] T4045.029
    
    [GRAPHIC] [TIFF OMITTED] T4045.030
    
    [GRAPHIC] [TIFF OMITTED] T4045.031
    
    [GRAPHIC] [TIFF OMITTED] T4045.032
    
    [GRAPHIC] [TIFF OMITTED] T4045.033
    
    [GRAPHIC] [TIFF OMITTED] T4045.034
    
    [GRAPHIC] [TIFF OMITTED] T4045.035
    
    [GRAPHIC] [TIFF OMITTED] T4045.036
    
    [GRAPHIC] [TIFF OMITTED] T4045.037
    
    [GRAPHIC] [TIFF OMITTED] T4045.038
    
    [GRAPHIC] [TIFF OMITTED] T4045.039
    
    [GRAPHIC] [TIFF OMITTED] T4045.040
    
    [GRAPHIC] [TIFF OMITTED] T4045.041
    
    [GRAPHIC] [TIFF OMITTED] T4045.042
    
    A[GRAPHIC] [TIFF OMITTED] T4045.043
    
    [GRAPHIC] [TIFF OMITTED] T4045.044
    
    [GRAPHIC] [TIFF OMITTED] T4045.045
    
    [GRAPHIC] [TIFF OMITTED] T4045.046
    
    [GRAPHIC] [TIFF OMITTED] T4045.047
    
    Mr. Hansen. Mr. Jim Matson, the floor is yours, sir.

    STATEMENT OF JIM MATSON, PRESIDENT, VERMILLION SERVICES

    Mr. Matson. Thank you, Mr. Chairman, members of the 
Committee.
    I am Jim Matson. I live in southern Utah. It is an area of 
immense expanse and beauty, large public areas.
    If you look at Arizona and Utah, interestingly enough it 
would be counterintuitive to say, boy, those are really some 
very great places, but you would say those two States have some 
of the most urbanized populations in the area--or in the 
country, for that matter. If you take a look at the Wasatch or 
what takes place in Maripoca and Pima counties, they pretty 
well dictate and dominate what takes place in the local 
political scene.
    I am a local rural communities kind of an advocate. I live 
in an area and a county that has fewer than 5,000 people. We 
are surrounded by Federal lands, Federal administrations that 
includes Park Service, Forest Service, BLM, some 15,000 square 
miles including the Dixis National Forest, Kaibab National 
Forest, Glen Canyon recreation area, Lake Meade recreation 
area, Grand Canyon National Park, Zion National Park, Bryce 
Canyon National Park, and, of course, Pipe Springs Monument. I 
could name the BLM portions of that as they are around us.
    In looking at the processes that take place out there, our 
communities thrive or just barely exist based on what takes 
place with the Federal administration. These communities were 
put in place historically from a pioneering effort that 
basically made their living off of the resource, off of the 
land. They are still dependent on those resources even today.
    Today we have been limited pretty much to tourism. Tourism 
by itself does not pay the bills. If anything, we end up with 
seasonal employment, low-wage employment. As a result of 
closures of mills and mining operations, we have family incomes 
that have dropped from $24,000 a year to under $19,000 a year, 
and we have close to four people in each one of those families 
trying to make a living and exist in those islands as they are 
surrounded by Federal administration.
    I am quite familiar with Forest Service and BLM appeals 
procedures and also public input procedures. I can say that, 
for the most part, I support what they are doing. I just 
learned today that the Forest Service is considering adopting 
the same system that the BLM has in place for appeals, so it 
would appear there is some standardization that is taking 
place.
    I am here to talk about both the appeals and the public 
input part as it relates to Park Service and Fish and Wildlife 
activities. I support the two bills that you are considering 
and recommend their passage. I think it would go a long way to 
helping represent rural people in rural areas that need more 
than just a reliance upon the population centers to represent 
their point of views.
    In more recent years, my experience particularly with the 
listing process for the Mexican spotted owl virtually took 
place in a vacuum as far as we are concerned on what took place 
on a local basis. The process is driven out of the State, out 
of the area, by an environmental movement that pretty much 
dictated the listing of the owl in circumstances that were 
questionable at best. We would have benefited by a more open 
public involvement process.
    I can recall going to public meetings in Flagstaff and over 
in Williams wherein the Fishing and Wildlife Service panel, 
which had a contract mediator to put these public meetings on, 
sat there basically and didn't respond to questions. We had 
issues that we wanted to get addressed as best we could. 
Without the appeals process that would go along with that, you 
are forced into litigation.
    There is a large area north of the Grand Canyon in the 
Kaibab National Forest, 250,000 acres. It ended up being 
designated as critical habitat for the Mexican spotted owl. 
They have yet to find an owl up there. It is a travesty because 
the process is so far out of line that you can't get in and 
break through those lines unless there is something that makes 
those people in the agencies more accountable. It is an awesome 
amount of power that the Fish and Wildlife Service is able to 
dictate based on a biological opinion.
    Those are the kinds of things that severely limit us at a 
local basis. We need to have a better way of getting input and 
to be heard and be a part of the process and not just victims 
of special interest processes.
    In another event, the California condor has been released 
on two sites in the Arizona strip. At first, the Fish and 
Wildlife Service conducted some very limited and fully attended 
meetings in Page, Flagstaff, and Kanab, Utah. When local 
elected officials and the people got an idea of what this could 
mean as it would have the reintroduction or relocation of 
condors as an endangered species, it would be like having B-52s 
fly around the countryside. After having the experience of what 
we did on the Mexican spotted owl issue, it is the kind of 
thing that really causes some concerns.
    I would have to compliment the Fish and Wildlife Service 
for taking a look at and listening to the comments and coming 
back to the table to sit down and negotiate and work some of 
these things out. Happily, we ended up working out a process 
under the 10(j) section of the Endangered Species Act in order 
to utilize an experimental nonessential population approach, 
and the condors are up there now. They are flying over the 
countryside. They go clear from Northern Arizona to Green 
River, Wyoming. They have been seen over in Grand Junction, and 
they are far outside that 10(j) area. But, for the most part, 
locally our folks have adopted those birds and have become 
quite friendly with them. It is interesting to watch them 
following the crows around and the ravens around and finding 
them at Lone Rock and at Lake Powell. You find them along the 
Colorado River. They are not recluses. They are not hiding out. 
They seem to be going where people are at, and they have good 
visibility.
    I guess I would wrap up my comments and say that if we had 
some owls around, we would like to adopt those, too.
    Mr. Hansen. Thank you, Mr. Matson. I appreciate your 
comments.
    [The prepared statement of Mr. Matson follows:]

      Statement of James L. Matson, President, Vermillion Services

    Mr. Chairman and distinguished members of the Subcommittee, 
I appreciate the opportunity to appear and testify in regard to 
the proposed legislation contained in H. R. 1864 and H.R. 1866. 
I am Jim Matson, I live, work and enjoy Southern Utah and 
Northern Arizona. Our home is in Kanab, Utah. We are completely 
surrounded by Federal lands administered by the BLM, Forest 
Service and Park Service. There is not a day that passes that 
the significance of the public lands and their impact on my 
neighbors and me isn't matter of daily discussion and concern. 
Local experiences due to cultural attachments and economic 
dependence on the land and associated resources are 
understandably necessary and generational. I have personally 
experienced both the joys and frustrations of public lands 
legislation, regulations and management. On the whole I have 
benefited professionally and personally from the availability 
of renewable resources from the National Forests and the 
grasslands of the BLM.

Background and basis for support of H. R. 1864 and H. R. 1866:

    Public laws, policies and regulations that apply to the 
administration of public lands have always affected rural 
communities, in one way or another. During the early part of 
this century and until the early 1980's, the Congress and the 
administration concentrated its efforts on the occupation and 
development of the lands under policies of conservation ethics 
for public lands west of the 100 meridian. These conservation 
principles shaped management policies for public lands that are 
under the administration of the Park Service, Forest Service 
and BLM. The U.S. Fish and Wildlife Service is a rather recent 
entity and has become a major regulatory and enforcement factor 
in public lands administration due to the enactment of the 
Endangered and Threatened Species Act.
    Roughly 3 percent to 5 percent of the lands in the 15,000 
square miles of South Central Utah and the Arizona Strip are in 
private ownership, the balance of the area is controlled by 
Federal agencies. As a result the communities of Alton, Big 
Water, Fredonia, Glendale, Lee's Ferry, Marble Canyon, Mt. 
Carmel, Moccasin, Skutumpah, and Vermillion Cliffs either just 
exist or prosper as the Federal agencies dictate access and 
utilization of natural resources. It is important to note that 
as the population of the United States urbanizes itself and 
becomes further removed from the land there are increasing 
major problems for rural communities and economies to cope 
with. The most formidable is community sustainability. We live 
and work in an area of enormous and spectacular beauty, but 
that alone does not sustain us. Low wage and seasonal tourism 
is simply unable to provide enough economic fuel to run our 
rural communities. To date the areas biggest export is its 
young people. Our population is gradually increasing in age, as 
our youth must go elsewhere to find opportunities to raise 
their families.
    The values of urban life are understandably distant from 
the values of deep rural life. The majority of people residing 
in the nation's urban population shape the policies of the day. 
For the most part special interest lobbying agendas on the 
environment are radically opposed to sustaining rural 
communities and peoples in isolated island communities 
surrounded by public lands.
    Prior to the closures of natural resource based businesses 
engaged in forestry and mining in Southern Utah and Northern 
Arizona the average family incomes with 1.5 people in the 
workforce was about $24,000 per year prior to 1995. Today we 
have 2.6 in the family working and making just under $19,000 
per year. Constant special interests pressures to under utilize 
economic renewable resources from public lands only burden 
rural public land dependent communities. Our communities 
possess the means and the desire to be working partners in 
developing and sustaining resource stewardship programs that 
can benefit public lands ecosystems and rural communities. 
However a willing Federal partner is either missing or 
unwilling to risk criticism for participating in ecosystem 
restoration programs that enhance landscapes and habitats.
    A missing element in all this is a lack of due process by 
all of the Federal natural resource managing and regulatory 
agencies. Environmental and cultural struggles of the past two 
decades has brought two agencies, the Forest Service and the 
BLM to a leadership role of responsible public involvement. 
Rural and public land dependent communities must have a 
reasonable opportunity to be heard and to compete with distant 
special interest agendas. At the very least, our communities 
require an affordable means of appealing Federal decisions and 
actions that threaten community sustainability.
Appeals and adequate public hearings at the Department Interior 
for the Fish and Wildlife Service and Park Service:

    For years special interest groups have lobbied Congress, 
and Federal agencies to open up the public input and processes 
for these interests to have a chance to shape or appeal public 
land management policies and implementation decisions. In the 
long run this has proven to be a wise undertaking for both the 
BLM and Forest Service. The American people for the most part 
are quite capable of having an impact on policies and the 
politics of public resource management. There are however two 
Federal agencies, the Fish and Wildlife Service and the Park 
Service lacking adequate administrative appeals procedures and 
requirements for public hearings. This situation often mandates 
the resolution of issues to the Federal courts. Litigation is 
always long, drawn out and very expensive. Most solutions to 
land and resource management issues are readily at hand through 
the administrative appeals processes including open and 
responsive public hearings. Lacking these process elements the 
Fish and Wildlife Service and Park Service operate in a manner 
with little regard for rural community values and knowledge 
about local people's connectivity to the land. Agency 
preoccupation with their daily problems and programs 
regrettably take primacy over public involvement and input 
particularly at a dependent community level. Much must be done 
about this, before we slide toward total dissatisfaction with 
all Federal land management and regulatory agencies.

Mexican Spotted Owls

    Allow me to share a case in point and one in which I have, 
regrettably, a great deal of first hand involvement in and now 
more than just a passing interest. The listing as threatened by 
the U.S. Fish and Wildlife of the Mexican spotted owl in the 
southwest, particularly the plateau areas of the Kaibab 
National Forest and Grand Canyon National Park illustrates the 
difficulty of assuring credible and supportable decisions. I 
have known from the onset that Mexican Spotted Owls simply are 
not found on the North Kaibab. Recent work and surveys indicate 
that these owls may be present in the slick rock canyon 
habitats below the rim of the canyons. After years of survey 
and management for suitable habitat for Mexican Spotted there 
has been a profound lack of confirmed sighting of any these 
owls in the forested areas of the North Kaibab Plateau. The 
Fish and Wildlife Service was assured of this countless times 
before they arbitrarily mandated critical habitat designations 
for the Kaibab for what now appears to have been a bio-
politically driven agenda. A properly structured public input 
and hearings process would have, I am certain would have 
resulted in a more deliberate and responsive listing and 
regulatory process. The Fish and Wildlife Service under its 
current regulations failed to properly assess and deal with the 
physical realities because they simply were not required to. A 
resultant lawsuit and injunction eventually curbed unnecessary 
critical habitat restrictions. But not before the closure of 
two lumber mills and the loss of over 900 critical and valuable 
jobs to Northern Arizona and Southern Utah. A timely appeals 
process would have been of great value in sorting most of this 
stuff out.
    Regulations promulgated under the Threatened and Endangered 
Species Act are very one sided and quite subjective. Individual 
bias of Fish and Wildlife employees often becomes the rule and 
not the exception. Unsupervised Fish and Wildlife biologists 
have become awesome brokers of unabated power and impact. These 
people must be accountable for their evaluations and decisions. 
Over worked and under funded biologists often error in favor 
overly restrictive and unnecessary requirements. The far 
ranging and in most cases irreversible decisions of the Fish 
and Wildlife Service calls for a more measured and deliberate 
listing and findings process. Properly formatted administrative 
appeals requirements and open public meeting rules would go a 
long way to assuring an adequate and open program of protecting 
our plant and wildlife species.

California Condor Relocation to the Arizona Strip

    On a different note and on one in which the outcome and 
results were of real value locally was the relocation of 
California Condors to the Vermilion and Hurricane Cliffs on the 
Arizona Strip. The Fish and Wildlife Service attempted a few 
public meetings in Page, Arizona and Kanab, Utah prior to the 
release of California Condors by the Peregrine Fund. The 
meeting were poorly noticed and sparsely attended. As local 
people became aware that endangered condors were to be 
sprinkled out over the landscapes of Northern Arizona and 
Southern Utah. Local county and community officials declared a 
high state of emergency. The Fish and Wildlife Service 
responded by saying that public meetings were held and that no 
one had objected. The response by local officials was one of 
complete surprise and amazement. Just one poorly noticed 
meeting for each community was justification for releasing an 
endangered condor with a flight range of an airplane? After the 
experience of Mexican Spotted Owls and Amber Snails we were not 
having any more of this. The Fish and Wildlife Service 
eventually followed up with improved and coordinated community 
and public involvement process for the release of California 
Condors. A Key element of this involvement resulted in the use 
of the 100(j) rule of the Threatened and Endangered Species 
Act, which allowed for the introduction to be carried out as 
experimental nonessential population of California Condors. 
We're finding that these new birds now think that their 
mentors, the common raven are pretty cool and are to be found 
hanging around campgrounds and the Colorado River. If these 
great birds had been released in the Arizona Strip as 
originally planned there would have been chaos and hell to pay 
for a process lacking in sensitivity and reasonableness. We 
have adopted these new California Condors and would probably 
feel the same about Mexican Spotted Owls if there were any 
around to get to know.

    Mr. Hansen. Mr. Monahan.

       STATEMENT OF BOB MONAHAN, CHAIRMAN, MONAHAN GROUP

    Mr. Monahan. Thank you, Mr. Chairman.
    On behalf of Gettysburg, local, State and national 
officials, historians, preservationists and historical and 
preservation groups, I want to thank you for this opportunity 
to speak to H.R. 1864 and 1866.
    Gettysburg is where I grew up and now where I raise my 
family. Gettysburg is a community of great importance to the 
American history because of its role in preservation of these 
United States. Gettysburg is a town that is tied to a co-
existence with the National Park Service. Gettysburg a town 
that I call home with pride.
    It is in this spirit that I first approached the NPS with a 
new public-private partnership, one that could be used as a 
model of National Parks across the country, one that stressed 
cooperation between the NPS and the local community.
    During my involvement in the 1994 development concept plan 
with Gettysburg, it became very clear to me how bureaucrats 
could manipulate the process and the outcome. I withdrew my 
offer and proposal from the National Park Service because of 
concerns by the local community, national historians and 
preservationists, and affiliated groups. Their fears of 
viewshed impact, congestion, disturbing hallowed ground, 
commercialization and distrust in the National Park Service 
were all major factors in my decision. To this day, many of 
these areas of concern have not been properly addressed.
    The history of what is happening in Gettysburg over the 
past 5 years is known to some extent. However, because of a 
lack of Federal guidelines and requirements on public meetings 
and hearings regarding procedure, documentation, public 
notification, agency responsibility, follow-up and response, 
not all is known. The true story of Gettysburg has been left to 
the conscious Americans, those who have demanded responsibility 
and accountability, to fight the National Park Service, a 
bureaucracy out of control.
    Hearings are not defined to the public for greater 
understanding. Citizens come to hearings thinking that if they 
ask questions, they will be given answers. Two hearings were 
conducted in a manner where citizens asked questions, but the 
NPS stood silent. No information or little was provided. The 
public was outraged at these hearings. In fact, at one of the 
two hearings when the NPS solicitor and superintendent gathered 
the hearings to a close before the allotted time period, the 
public rose from their seats in anger and protest and refused 
to leave the room until the NPS solicitor and superintendent 
reponed the hearing.
    Although the two official hearings were transcribed by 
audio tape, the other public meetings and workshops held at the 
NPS were not transcribed. There were constant requests and 
protests by the public that recordation be done, but the NPS 
ignored the suggestions from the public. This is important 
because it allowed the National Park Service to say whatever it 
wanted to, to answer or not answer the questions without any 
record of it.
    Another case in point, an instance when two staff members 
of this committee attending a meeting in Gettysburg were 
exposed to this firsthand and publicly brought this to the 
attention of the superintendent during the meeting, their 
concerns were ignored.
    The NPS held a meeting concerning the Visitor Center/
Cyclorama with historians, architects, and preservationists. 
During that meeting a question was asked as to why, at such an 
important meeting, which was to determine the fate of an 
important, historic Federal building, the meeting was not being 
transcribed or recorded. Afterwards, some random hand notes 
were taken by the NPS.
    By not transcribing these meetings and hearings, the NPS 
can hide and not be held accountable. The NPS can state how 
many meetings they had, but they do not have to state what 
actually happened or what was said during those meeting. In 
fact, they can simply deny or not remember what happened.
    The conduct of the NPS at Gettysburg has been and continues 
to be one of pure arrogance and disregard for local, State and 
national elected officials, Congress, national historians, 
preservationists and their organizations. This behavior has 
created a national scandal.
    Superintendent John Latschar was quoted in the York Sunday 
News on March 23, 1997, as saying "I'm bold enough and arrogant 
enough to believe that I have the training and education and 
the ability to cure a lot of Gettysburg and Eisenhower's 
problems." .
    On September 26, 1997, USA Today stated, "As for his local 
critics he, Superintendent Latschar, professes not to pay much 
attention." on July 15, 1998, the Gettysburg Times quoted 
Superintendent Latschar as saying, "Even members of Congress, 
bless their hearts, don't understand all of the legal 
ramifications of the laws they pass." .
    The NPS, through its handling and general management plan 
and proposed public-private venture, has ignored responsibility 
to its constituents to conduct its affairs and public meetings 
in open, accountable, and forthright fashion. The GMP can be 
described in two expressions: "done deal" and a "cart before 
the horse" approach to planning.
    The community was not allowed to see the particulars of the 
preferred proposal until 8 months after the winning bidder was 
selected. That proposal was selected in November, 1997; and the 
public was given a first look at the general nature of the 
proposal on July 4, 1998, a done deal. The NPS Director's Order 
No. 2 says that the GMP should be the first tier of a long-
range planning process. The proposed GMP puts the cart before 
the horse by inserting a very specific alternative before 
laying the basic general groundwork normally presented in GMP.
    The National Environmental Protection Act mandates that NPS 
planners provide a full range of alternatives for any 
development. The GMP provided two--no action or the selected 
proposal. There was no middle ground such as rehabilitation or 
improvement of the current facility or possible placing of some 
non core essential features such as curatorial or archival in 
separate facilities nearby in the borough.
    The NPS is pushing their plan for Gettysburg because they 
see it as a way of opening the door to entering into a public- 
private partnership at a host of other national parks around 
the country. They are hoping they have found a way to gain for 
themselves millions of dollars of capital and relieve 
themselves of congressional oversight. They believe that it is 
such an attractive prospect that they have been willing to play 
fast and loose with their fundamental responsibilities and the 
facts in order to make the Gettysburg plan a reality. There is 
just too much money at stake.
    The NPS should say what they mean and mean what they say. 
They are doing neither. In the process, they diminish their own 
authority as conservators of the hallowed ground entrusted to 
their care. With hundreds of millions of dollars at stake, 
Gettysburg may only be the beginning.
    Gettysburg also proves an interesting situation for the NPS 
in its potential impact on parks around the country. The often 
pathetic way it conducted meetings and hearings left many 
individuals upset, frustrated, angry, and with a feeling of 
misrepresentation, misleading statements and betrayal.
    Of national consequence is Gettysburg's GMP and public- 
private partnership in that it will, one, be used as a national 
model; two, circumvent Federal concession law; and, three, put 
the NPS and the Federal government into for-profit businesses 
through a nonprofit foundation competing against every mom and 
pop and corporate business, and it would have devastating 
impact with communities who partner and depend on the 
relationship with the NPS.
    At Gettysburg, the NPS has never asked Congress for any 
funds to rehabilitate or build new facilities, yet through 
these public meetings and hearings the NPS has devised a scheme 
that ignored the direction of Congress when it was told that 
the plan should, quote, stop and be redone because it was 
quote, fatally flawed. Individuals who have spoken out against 
these plans have had the NPS make attempts to discredit and 
dismiss their comments to the point of ruining the reputations.
    If hearings and meetings are not run properly, then how do 
we raise concerns that are meaningful? Senators and Congressmen 
wrote and asked for an extension of the 60-day review period 
and were refused by the NPS. Why? Simply because they could 
without any ramifications.
    More importantly, what about traffic, parking, community 
impact, and survival of a living and working community? What 
about the NPS's many concerns, those of viewshed impact, 
disturbing hallowed ground, et cetera? Should they be allowed 
to ignore the concerns and issues they raise with everyone 
else? More importantly, can they break their own and Federal 
procedures and laws?
    Should they be allowed to hold hearings and refuse to 
answer questions? Do you really believe the Superintendent at 
Gettysburg when he was asked why a meeting was not being 
recorded and he responded it was too expensive to tape record 
it?
    This is bad government that has turned into bad politics 
because of extensive lobbying of Hill & Knolton and others who 
don't understand and don't care about what is really at stake. 
This is about a bureaucrat and bureaucracy out of control. It 
is about the worst of the government, a Federal agency that 
refuses the recognize the will of the people and ignore 
Congress. They have essentially told you, the elected members 
representing us, to go to hell.
    Senator Craig Thomas, Chairman of the Subcommittee on 
National Park, Historic Preservation and Recreation, said on 
February 24, 1998, "Any general management plan formulated in 
the future would be perceived by many as predetermined." .
    Mr. Hansen, you said on July 14 of this year, "This 
proposal has soured the general public's perception of the 
National Park Service and infuriated the public with this 
project." .
    Congressman Goodling of the 19th Congressional district, 
where I live, on July 14 on the floor of the House of 
Representatives said, "I am outraged over the Park Service out 
of control and its attitude towards the citizens of Gettysburg. 
I have never seen such a display of arrogance and disregard for 
the well being and opinion of those who will be impacted most." 

    The NPS knows full well that the only appeal to a 
bureaucrat and bureaucracy out of control and in violation of 
Federal mandates and law is to use the judicial system. This is 
a very expensive and timely remedy to individuals, groups or to 
local governing bodies.
    I appear to you today as a direct result of this 
superintendent and the NPS's misrepresentation, misleading 
information and botched handling of meetings and hearings. As I 
speak to you today, there is an ongoing GAO investigation, a 
Federal lawsuit, a deposition of the superintendent, as well as 
a pending Inspector General investigation. We cannot allow the 
NPS to push headlong into a project casting all questions aside 
without an appeal process.
    In closing, I urge to you adopt H.R. 1864 as a means to 
standardize the procedures used by Federal agencies for public 
hearings so that the public understands what is to be expected 
from Federal agencies. I urge you to adopt H.R. 1866 in order 
to establish regulations which would address what types of 
agency decisions are appealable and who may appeal such 
decisions and establish a process that Federal agencies would 
follow for notifying the public of their appeal procedures.
    Thank you.
    Mr. Hansen. Thank you, Mr. Monahan. I appreciate your 
comments.
    [The statement of Mr. Monahan follows:]

  Statement of Robert J. Monahan Jr., Chairman, Monahan Group

    On behalf of Gettysburg, local, state and national elected 
officials, historians, preservationist, and historical and 
preservation groups, I thank you for this opportunity to speak 
to H.R. 1864 and H.R. 1866.
    Gettysburg is where I grew up, and where I now raise my own 
family. Gettysburg is a community of great importance in 
America's history, because of its role in the preservation of 
these United States. Gettysburg is a town that is tied to a 
coexistence with the NPS. Gettysburg is a town I call home with 
pride.
    It was in this spirit that I first approached the NPS with 
a new public-private partnership, one that could be used as a 
model in national parks across the country, one that stressed 
cooperation between the NPS and the local community.
    During my involvement with the 1994 Development Concept 
Plan at Gettysburg, it became very clear to me how bureaucrats 
could manipulate the process and the outcome. I withdrew my 
offer and proposal to the National Park Service because of 
concerns by the local community, national historians and 
preservationists, and affiliated groups. Their fears of 
viewshed impact, congestion, disturbing hallowed ground, 
commercialization and distrust of the NPS were all major 
factors in my decision. To this day, many of these areas of 
concern have not been properly addressed.
    The history of what has happened in Gettysburg over the 
past five years is known to some extent. However, because of a 
lack of Federal guidelines and requirements on public meetings 
and hearings, regarding procedure, documentation, public 
notification, agency responsibility, follow up and response, 
not all is known.
    The true story of Gettysburg has been left to the conscious 
Americans, those who have demanded responsibility and 
accountability, to fight the NPS, a bureaucracy out of control.
    Hearings are not defined to the public for greater 
understanding. Citizens come to hearings thinking that if they 
ask questions they will be given answers. Two hearings were 
conducted in a manner where citizens asked questions but the 
NPS stood silent. No information, or little information, was 
provided. The public was outraged at these hearings. In fact, 
at one of the two hearings, when the NPS solicitor and 
Superintendent gaveled the hearing to a close before the 
allotted time period, the public rose from their seats in anger 
and protest and refused to leave the room until the NPS 
solicitor and Superintendent reopened the hearing.
    Although the two official hearings were transcribed by 
audio tape the other public meetings and workshops held by the 
NPS were not transcribed. There were constant requests and 
protests by the public that recordation be done but the NPS 
ignored the suggestions from the public. This is important 
because it allowed the NPS to say whatever it wanted to, to 
answer or not to answer questions without any record of it.
    Another case in point--an instance when two staff members 
of this Committee, attending a meeting in Gettysburg, were 
exposed to this first hand and publicly brought this to the 
attention of the Superintendent at the meeting. Their concerns 
were ignored.
    The NPS held a meeting concerning the Visitor Center/
Cyclorama with historians, architects and preservationists. 
During that meeting a question was asked as to why, at such an 
important meeting, which was to determine the fate of an 
important, historic Federal building, the meeting was not being 
transcribed or recorded. Afterwards, some random, hand notes 
were taken by NPS.
    By not transcribing these meetings/hearings, the NPS can 
hide and not be held accountable. The NPS can state how many 
meetings they had but they do not have to state what actually 
happened or what was said during those meetings. In fact, they 
can simply deny or not remember what happened.
    The conduct of the NPS at Gettysburg has been, and 
continues to be, one of pure arrogance and disregard for local, 
state and national elected officials, Congress, national 
historians, preservationists, and their organizations. This 
behavior has created a national scandal.
    Superintendent John Latschar was quoted in the York Sunday 
News of March 23, 1997 as saying ``I'm bold enough and arrogant 
enough to believe I have the training, the education, and the 
ability to cure a lot of Gettysburg's and Eisenhower's 
problems.'' On September 26, 1997, the USA Today stated ``As 
for his vocal critics, he (Superintendent Latschar) professes 
not to pay much attention.'' And on July 15, 1998 the 
Gettysburg Times quoted Superintendent Latschar as saying 
``Even members of Congress, bless their hearts, don't 
understand all of the legal ramifications of the laws that they 
pass.''
    The NPS, through its handling of its General Management 
Plan and proposed public private venture, has ignored 
responsibility to its constituents to conduct its affairs at 
public meetings in an open, accountable and forthright fashion. 
The GMP can be described in two expressions: ``Done deal'' and 
a ``cart before the horse'' approach to planning. The community 
was not allowed to see the particulars of the preferred 
proposal until eight months after the winning bidder had been 
selected. That proposal was selected in November of 1997 and 
the public was given a first look at the general nature of the 
proposal on July 24, 1998. A done deal. The NPS Director's 
Order No. 2 says that GMP should be the 2st tier of a long 
range planning process. The proposed GMP puts the ``cart before 
the horse'' by inserting a very specific alternative before 
laying the basic, general groundwork normally presented in a 
General Management Plan.
    The National Environmental Protection Act mandates that the 
NPS planners provide a full range of alternatives for any 
development. The GNMP provided two--no action or the selected 
proposal. There was no middle ground such as rehabilitation and 
improvement of the current facility or the possible placing of 
some non ``core'' essential features, such as curatorial and 
archival, in separate facilities nearby in the borough.
    The NPS is pushing their plan for Gettysburg because they 
see it as a way of opening the door to entering into a public-
private partnership at a host of other National Parks around 
the country. They are hoping they have found a way to gain for 
themselves hundreds of millions of dollars of capital and 
relieve themselves of congressional oversight. They believe it 
is such an attractive prospect that they have been willing to 
play fast and loose with their fundamental responsibilities, 
and the facts, in order to make the Gettysburg Plan a reality. 
There is just too much money at stake.
    The NPS should say what they mean and should mean what they 
say. They are doing neither. In the process, they diminish 
their own authority as the conservators of the hallowed lands 
entrusted to their care. With hundreds of millions of dollars 
at stake, Gettysburg may be only the beginning.
    Gettysburg proves a very interesting situation for the NPS 
and its potential impact on parks around the country. The often 
pathetic way it conducted meetings and hearings left many 
individuals upset, frustrated, angry, and with a feeling of 
misrepresentation, misleading statements and betrayal. Of 
national consequence is Gettysburgs' GMP and public private 
partnership in that it will
        <bullet> be used as a national model circumvent Federal 
        concession law
        <bullet> Put the NPS and Federal Government into for-profit 
        businesses through a non-profit organization competing against 
        every Mom & Pop and corporate business, having devastating 
        impact on communities who partner and depend on their 
        relationship with NPS
    At Gettysburg, the NPS has never asked Congress for any funds to 
rehabilitate or build new facilities. Yet, through these public 
meetings and hearings, the NPS has devised a scheme that ignored the 
direction of Congress when it was told that the Plan should be 
``stopped and redone'' because it is ``fatally flawe.'' Individuals who 
have publicly spoken out against these plans have had the NPS make 
attempts to discredit and dismiss their comments to the point of 
ruining their reputations.
    If hearings and meetings are not run properly, how then do 
we raise concerns that are meaningful? Senators and Congressmen 
wrote and asked for an extension of the 60-day review period 
and were refused by the NPS--why? Simply because they could 
without any ramifications. More importantly, what about 
traffic, parking, community impact, and survival as a living 
and working community? What about NPS's many concerns: those of 
viewshed impact, disturbing hallowed ground, etc? Should they 
be allowed to ignore the concerns and issues they raise with 
everyone else? And even more importantly, can they break their 
own, and Federal, procedures and laws?
    Should they be allowed to hold hearings and refuse to 
answer questions? Do you really believe the Superintendent at 
Gettysburg when he was asked why a meeting was not being 
recorded and he responded it was too expensive to tape record 
it?
    This is bad government that has turned into bad politics 
because of extensive lobbying of Hill & Knolton and others, who 
don't understand and don't care about what is really at stake. 
This is about a bureaucrat and bureaucracy out of control. It 
is about the worst of government--a Federal agency that refuses 
to recognize the will of the people and ignore Congress. They 
have essentially told you--the elected members representing 
us--to go to hell.
    Senator Craig Thomas, Chairman of the Subcommittee on 
National Park, Historic Preservation and Recreation said on 
February 24, 1998 ``Any General Manaement Plan formulated in 
the future will be perceived by many as `predetermined.' ''
    Mr. Hansen, on July 14, 1999, said ``. . . . this proposal 
has soured the general public's perception of the Park Service 
and infuriated the public with this project.''
    Congressman Goodling, on July 14, 1999, on the floor of the 
House of Representatives said, ``I am outraged over the Park 
Service out of control and its attitude towards the citizens of 
Gettysburg. I have never seen such a display of arrogance and 
disregard for the well being and opinions of those who will be 
most impacted. . . .
    The NPS knows full well that the only appeal to a 
bureaucrat and bureaucracy out of control and in violation of 
Federal mandates and law is to use the judicial system. This is 
a very expensive and timely remedy to individuals, groups or to 
local government bodies.
    I appear before you today, as a direct result of this 
superintendent and the NPS's misrepresentation, misleading 
information and botched handling of meetings and hearing. As I 
speak to you today, there is an ongoing GAO investigation and 
Federal lawsuit, and a deposition of the Superintendent, 
scheduled within days, as well as a pending Inspector General 
investigation. We cannot allow the NPS to push headlong into a 
project casting all who question them aside without an appeal 
process.
    In closing, I want to urge you to adopt H.R. 1864 as a 
means to standardize the procedures used by Federal agencies 
for public hearings so that the public understands what is to 
be expected from Federal agencies. I urge you to adopt H.R. 
1866 in order to establish regulations which would address what 
types of agency decisions are appealable, who may appeal such 
decisions, and establish a process that Federal agencies would 
follow for notifying the public of their appeal procedures.

    Mr. Hansen. Now, you may ask yourself the question of why 
do we come up with legislation. Basically, it is because we are 
all elected by the public. Probably three of us here have over 
500,000 people that we represent. I have been here 10 terms 
now, 20 plus years, and I have sat on six committees and 
chaired three committees. I would assume that the thing that I 
have had more comment on is public hearings on the Park Service 
and Fish and Wildlife than any others. We don't just abstract 
and pull these out of the hat.
    When I read Ms. Falkner's statement that everything is 
going fine, why does the public respond that way? Why do they 
not think that? Contrary to what some folks think in 
Washington, we are here to represent the people. This is a 
people's government. And if the people don't like something, 
that is how Congress gets involved. We don't abstractly pull 
this out.
    I haven't heard that much on the Forest Service, strangely 
enough. Maybe Jim Matson has, because I know he has worked with 
them a lot. I haven't heard too much on BLM. I guess, of the 
four, BLM would be the lowest. Those other two that we are 
specifically addressing here, we got into that.
    With that little editorial, I will turn to my colleagues 
for questions. The gentleman from Nevada.
    Mr. Gibbons. Thank you, Mr. Chairman.
    Indeed, I would echo your comments about public sentiments 
and statements regarding public hearings by certain agencies, 
the Department of the Interior. I think Ms. Falkner can tell by 
the statements that were presented by these gentlemen that 
there is a great deal of cynicism in the general public about 
your agency.
    With that, I would ask, having read your statement here, I 
noticed that you indicated that you think it would be a better 
idea if all Federal agencies were included in this bill, not 
just the Department of the Interior. Is that a correct 
presentation of your written statement?
    Ms. Falkner. I think a more accurate statement would be 
that the findings of the bill suggested that this was a problem 
governmentwide. And so we are looking to you, if you believe 
that this is a problem that is governmentwide, then we would 
ask that the other agencies be put under this legislation as 
well and that they be allowed to comment as well.
    Mr. Gibbons. So you would advocate that all agencies be put 
under this same standard?
    Ms. Falkner. If the findings of this legislation are that 
this is a governmentwide problem, yes.
    Mr. Gibbons. Ms. Falkner, whenever there is a public 
hearing taken by your agency, what do you do with the records 
of that public hearing?
    Ms. Falkner. The records become part of the decision-making 
record. If it is a rule, for example, it becomes part of the 
rule-making record. And those comments are then made part of 
the decision-making process for the final decision on the rule.
    Mr. Gibbons. Do you keep the records?
    Ms. Falkner. They are maintained.
    Mr. Gibbons. All comments from the public?
    Ms. Falkner. Comments that are received are maintained.
    Mr. Gibbons. Is there a standard format that you adhere to 
for those public hearings that you do undertake?
    Ms. Falkner. Most of the rule-making hearings that we do 
are informal in nature. Some of the processes vary depending on 
the size of the public that is involved and the nature of the 
hearing itself.
    Mr. Gibbons. Would you state that it is the policy of your 
Department that you respond to all legitimate questions that 
are proposed by the public?
    Ms. Falkner. In a rule-making context under the 
Administrative Procedures Act we are required to respond to all 
significant comments within the final rule-making.
    Mr. Gibbons. What about at any of these other formal or 
informal hearings when the public asks questions? What is your 
policy? What is the position of your agency with regard to 
responding to public questions?
    Ms. Falkner. We believe it is important to respond to the 
public.
    Mr. Gibbons. Do you?
    Ms. Falkner. We attempt to do that. It is important to 
remember, though, that we may be limited in answering a 
particular type of question because it would be inappropriate 
under another piece of legislation such as the Administrative 
Procedure Act from making a final determination before all 
comments are received.
    Mr. Gibbons. Let me ask one of these other three gentlemen 
their comments. You just heard from the agency about their 
policy about answering public questions. Do you have a response 
to that, Mr. Bieti?
    Mr. Bieti. Yes. Bull.
    Mr. Gibbons. What was that again? You can say it.
    Mr. Bieti. Bullshit. We went into this being turned down. 
We wanted to read these public comments that were recorded. We 
were forced through the Freedom of Information Act to pay for 
4,300 pages of comment. The superintendent alleged for a year 
that there was public support of this plan. Out of 616 
comments, for example, we went through, put into a spreadsheet 
and found four that said we want nonmotorized areas. Four is, 
in the vernacular of the Park Service, most or more or many. 
Four out of 616 where I come from isn't much.
    Mr. Gibbons. Let me interrupt you and make a real quick 
comment in the time I have. I want to go back to Ms. Falkner 
and ask, if these public hearings that you conduct, are any of 
them done where the public is not permitted to ask questions?
    Ms. Falkner. I am not familiar with that.
    Mr. Gibbons. Is anyone behind you who could testify to this 
matter and give us an answer to that question?
    Ms. Falkner. I think the nature of a public hearing is to 
get information.
    Mr. Gibbons. The question is, do you ever conduct a public 
hearing where the public is not permitted to ask a question?
    Ms. Falkner. What I am hearing is that we allow the 
questions to be asked. In some cases, we cannot provide an 
answer at the public hearing.
    Mr. Gibbons. In response to my earlier question, is it the 
policy of your Department to answer questions, obviously that 
would then correct that previous misstatement that it is not 
the policy of your agency to answer the questions of the public 
because you are saying now that you don't permit an answer to 
the question at these hearings.
    The other question that didn't get answered is, at any of 
those hearings are the public precluded from asking a question? 
That is not a statement of saying, well, they can ask a 
question, but we won't answer it. Are they precluded from 
asking a question in any of these hearings?
    Ms. Falkner. I am not familiar with that unless there is a 
question of timing. In some cases we have enormous attendance 
at hearings and maybe not everybody may be allowed to speak.
    Mr. Hansen. Let's have another round, shall we?
    The gentleman from Colorado.
    Mr. Mark Udall. Thank you, Mr. Chairman.
    As I begin, I just want to make the comment to the Chairman 
and my colleagues that I stayed for the hearing because I have 
an interest in this issue and bring an open mind and don't 
bring a prescribed point of view on this. I think there are 
some important issues that have been raised and this is an 
issue that ought to be looked at in a bipartisan fashion. I 
look forward to doing that with you.
    In that spirit, I want to ask a question of Ms. Falkner. I 
think you mentioned a concern that if H.R. 1864 were enacted it 
could lead to some litigation over this issue of procedure. If 
we take the bill to markup, is this something that we could 
address, some ideas that you might have to speak to your 
concerns about litigation based on procedures?
    Ms. Falkner. I think it is something that we would be 
willing to work with the Committee on.
    Mr. Mark Udall. You would prefer to have additional time, 
to provide us with some specifics? Is that what I hear you 
saying?
    Ms. Falkner. Yes.
    Mr. Mark Udall. I did--in response to my colleague from 
Nevada's questions, the hearings that I have been to seem to me 
to have two purposes, one to gather input from the public; the 
second purpose is often to educate the public. I know there is 
a balancing act that has to take place. In my own experience of 
holding town meetings, it seems to me the best policy is to 
allow the public to speak as much as possible, to hear from 
them. I hope the agencies involved continue to keep that in 
mind.
    Let me direct a couple more questions your way. Moving to 
H.R. 1866, I read it as saying, and I am curious if you read it 
similarly that it would require the Fish and Wildlife Service 
to revise its appeals and procedures for decisions under the 
Endangered Species Act. Would you comment on that?
    Also, answer if you can what is the current procedure when 
you go through an appeals process around the ESA?
    Ms. Falkner. I am going to ask somebody from the Fish and 
Wildlife Service to respond to those questions directly. They 
would be more familiar with that appeals process and the 
opportunity that somebody may have to make a comment on that 
decision, if you don't mind.
    Mr. Mark Udall. Is there somebody here who could do that? 
Mr. Chairman, is that----
    Mr. Hansen. If they would step forward and grab a mike and 
identify themselves, we would appreciate it.
    Mr. Miller. My name is Martin Miller. I am with the 
Division of Endangered Species in the Fish and Wildlife 
Service. There is no formal appeal process for a listing 
decision under the Endangered Species Act.
    Mr. Mark Udall. There is no formal process that you are 
aware of before or after the decision?
    Mr. Miller. That is correct.
    Mr. Mark Udall. Mr. Chairman, at some point you may have a 
comment on this as well, given your experience.
    Ms. Falkner, when I looked at Mr. Bieti's testimony--and if 
I might add an aside, Mr. Bieti, maybe we could clarify your 
earlier statement that you expressed some doubt about whether 
the Fish and Wildlife Service and other have taken your input. 
But it seemed that one concern about the hearings is that 
sometimes the open house format is seen as less satisfactory. 
How do you go about deciding when to use that open house 
format?
    Ms. Falkner. The agencies make a decision based upon the 
community that they are going into, the issues that are 
involved. For example, if it is an Endangered Species Act 
listing and there is a request for a formal hearing, they must 
go through a formal hearing. Otherwise, the intent of the Fish 
and Wildlife Service is to get as much information out as 
quickly and easily as possible. The informal hearing such as 
open houses, by and large, seem to work best. We have a lot of 
people attending those. There is much more of a dialogue 
exchanged at those meetings in the context of a formal hearing.
    Mr. Mark Udall. You mentioned the Fish and Wildlife 
Service. Is that similar to the approaches by the other 
Interior agencies? Can you comment?
    Ms. Falkner. They make decisions based upon the nature of 
the issue involved, the community that they are going into, 
whether or not there has been a request as well for a formal 
hearing.
    Mr. Mark Udall. Would you agree that it is a policy or at 
least a mindset within the Department that a mix of hearings is 
often appropriate, that that is considered at least in the 
process?
    Ms. Falkner. Yes. As you mentioned earlier, sometimes the 
purpose of a hearing can be two-fold. One is to actually 
exchange information and the second is to receive information 
from the public. The agencies need the flexibility to determine 
how best to conduct hearings for those particular purposes. 
Some people are intimidated by a more formal process and prefer 
to enter their comments in a less formal setting such as an 
open house.
    Mr. Mark Udall. Thank you, Mr. Chairman. I see my time is 
up.
    If I could make one brief comment which I think would speak 
to your concern. It has to do with the Federal Highway 
Administration, which is not covered by part of this 
legislation, but there is a proposal in my district to pave a 
particular rugged high alpine road. The Federal Highway 
Administration continues to just hold open house type meetings 
for public input. The communities all around that area kept 
calling for more formal hearings, and the Federal Highway 
Administration refused to call those kinds of hearings. It 
speaks exactly to the situation that you brought attention to 
with this legislation.
    Mr. Hansen. I appreciate the gentleman's comments.
    We will have another round of questioning.
    We don't want to beat up on you folks. Please don't take it 
that way. We realize that you are very strong public servants, 
but our job is to pass legislation when we see a problem.
    Frankly, as I think back to all of the complaints that we 
have had about public hearings, the main one goes this way. It 
says, the agency, whoever it may be, in many cases the Fish and 
Wildlife especially, comes in with preconceived plans that are 
already determined and then work to that. Honestly, I have 
heard employees of different organizations say, we just got to 
go through these hoops before we can implement what we want to 
do anyway. I will ask you three gentlemen, have you had that 
experience or am I just getting the wrong complaints or are 
these just a bunch of people who are perennial naggers?
    Mr. Monahan. I would say your assessment is correct. There 
were decisions made, and it goes back to the general management 
plan and the Director's Order No. 2 which states that that is 
first tier in the planning process. Unfortunately, this is a 
done deal, as has been said, and predetermined.
    You talked about the hearings earlier. They had an open 
period of 60 days for review, and then it was left not to the 
National Park Service, here to Congress or to the regional 
administrator, but to the local superintendent to determine 
whether he wanted to extend the opportunity that people had to 
address concerns that they had. He denied that.
    A lot of what we have seen in Gettysburg and continue to 
see basically about the National Park Service made the decision 
and was going to move ahead regardless--that was very clear 
when they ignored your wishes when you called the plan fatally 
flawed, this Committee, and asked to have it stopped and be 
redone and then proceeded to put it through the 30-day, no 
action period. So as is very clear in my mind and minds of many 
other people, when they make a decision, they just, as you say, 
jump through the hoops.
    Mr. Hansen. Before I came here, I was in the State 
legislature, and I was speaker of the house. We had a public 
hearing with the Federal folks in the State capital. And Scott 
Mathieson, who was governor at the time, really fine gentleman, 
different political persuasion than I am, we sat and listened 
to that. Almost every legislator there testified a certain way, 
as did the public at two other meetings. It came out exactly 
the way they presented, and it didn't change one iota.
    Scott was really ticked off. I remember him flying back and 
beating up on Secretary Cecil Anders at the time, saying what 
the hell are these meetings for? They didn't pay attention to 
us.
    That is when one of the guys that conducted the meeting 
said, I don't care you guys said, we had to go through these 
hoops.
    I found it very distressing. I hope that isn't the case. If 
I hold--back to Ms. Falkner, why would it be? This is an unfair 
question because I am using knowledge that you don't have, and 
I apologize to you. Why would it be we get so many complaints 
about you folks?
    Ms. Falkner. I am sorry?
    Mr. Hansen. Why do we get more complaints about the Park 
Service and Fish and Wildlife on hearings than we do on any 
other agency in government?
    Ms. Falkner. As I said, Mr. Chairman, I am unfamiliar with 
the complaints that you are receiving.
    Mr. Hansen. I will get you some. That is only fair. That is 
not fair to ask you that kind of question. I realize that.
    But you say, why are we getting complaints on all of these 
folks? That is why we have hearings like this. We have some 
hang-ups. We know that you operate under different laws. Some 
of us are of the opinion that maybe we should have had a 
hearing on the Grand Staircase Escalante, but we fully realize 
that was done under the 1906 antiquities law and did not 
require that as some of these others do.
    Mr. Monahan, do you want to make a comment?
    Mr. Monahan. I consider myself a friend of the parks, and I 
have worked over the years as I grew up in Gettysburg to 
support the National Park Service in many ways. The unfortunate 
part is that many people that live in and around a National 
Park have an attitude, and the attitude is the Park Service 
will do what the Park Service is going to do. Unfortunately, 
they did it one too many times in Gettysburg, and that is why 
all of the controversy has erupted.
    I want to be clear with these folks that are here today. I 
think the National Park Service is an institution that we need 
to give our support to, but the other side of the coin is that 
I don't think in many instances it goes both ways. I just want 
to be on the record speaking as a friend of the park even 
though I have testified on serious conditions that have been 
occurring in Gettysburg.
    Mr. Hansen. We have 370 something units in the Park Service 
now. The majority of them do a darn good job. Secondly, a lot 
of these folks can only operate under the laws that come out of 
this group. We give them a law, a lot of latitude. They have to 
interpret it and go from there. Tough job. Pleasing everybody 
is very hard.
    Mr. Matson, your comments.
    Mr. Matson. I would like to comment in terms of a 
responsive process that we can deal with that might be 
standardized between the agencies that are involved in land 
management or resource management issues. The only avenue that 
is left open to us if we don't have an adequate public response 
process and questions and answers and appeals is litigation. 
Then you are talking about expense and cost and frustration and 
time. Those are the kinds of things that local communities and 
small county governments cannot afford to do. We think this 
would be a real nice process to help deal with some of that 
stuff and get issues dealt with in a more responsive manner.
    Mr. Hansen. I agree with you. Especially the little guy 
when he gets into this and he has no appeal but the court. He 
is pretty well had.
    As you mention in your testimony, look at all of the little 
guys that have gone under, especially down in your area. I use 
Escalante sawmills as a classic example. And the company I 
think you used to be associated with, Kaibab Industries, they 
finally threw their hands in the air and that type of thing.
    The gentleman from Nevada.
    Mr. Gibbons. Thank you, Mr. Chairman.
    I only have one brief final question, because I think it 
deals exactly with the subject that we are talking about here 
in the whole process in an effort to get to some public 
confidence in the decision process. I would go back to Ms. 
Falkner and ask her if there has ever been a discussion within 
the agency with regard to establishing an appeals process for 
these various Park Services and Fish and Wildlife Service so 
there is an available recourse for some of these decisions? 
Have you ever had a such a discussion within your Department of 
Interior?
    Ms. Falkner. I am unfamiliar with that type of discussion. 
I can find out whether that kind of discussion has ever 
occurred, but I am unfamiliar with that.
    Mr. Gibbons. Would you ask that question and submit it for 
the record for this Committee, whether there has been a 
discussion and when and get the details and the record of that 
decision?
    Ms. Falkner. Yes.
    [The information follows:]
    Mr. Gibbons. With that, Mr. Chairman, I have no further 
questions.
    Mr. Hansen. I would just like to end it on this.
    Ms. Falkner, you may be of the opinion in your testimony 
that the Interior Department opposes these two pieces of 
legislation. I don't know if that is in cement, we oppose it 
regardless of what you say in it, or is there a place you would 
like to give us some opportunity or some input that you feel 
would make it better legislation of if you just feel it is 
unnecessary, like you say in your statement, let us know that. 
But if you feel there is something in there that would improve 
it or possibly make the whole process better, we would like to 
hear from you. If not, we are going to continue ahead with this 
legislation. If you would like to write us a letter saying the 
President is going to suggest a veto, I would like to have that 
because that will tell me what to pocket it with before I send 
it to the White House.
    With that, thank you very much. We will consider this 
adjourned.
    [Whereupon, at 1:15 p.m., the Subcommittee was adjourned.]

                                <greek-d>
</pre></body></html>
